<html>
<title> - EXPLORING A COMPREHENSIVE STABILIZATION, RECONSTRUCTION, AND COUNTERTERRORISM STRATEGY FOR SOMALIA</title>
<body><pre>[Senate Hearing 110-234]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-234
 
     EXPLORING A COMPREHENSIVE STABILIZATION, RECONSTRUCTION, AND 
                 COUNTERTERRORISM STRATEGY FOR SOMALIA

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 6, 2007

                               __________

       Printed for the use of the Committee on Foreign Relations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html



                     U.S. GOVERNMENT PRINTING OFFICE

39-987 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001


                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               GEORGE V. VOINOVICH, Ohio
ROBERT MENENDEZ, New Jersey          LISA MURKOWSKI, Alaska
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHNNY ISAKSON, Georgia
JIM WEBB, Virginia                   DAVID VITTER, Louisiana
                   Antony J. Blinken, Staff Director
            Kenneth A. Myers, Jr., Republican Staff Director

                                 ------                                

                    SUBCOMMITTEE ON AFRICAN AFFAIRS

                RUSSELL D. FEINGOLD, Wisconsin, Chairman

BILL NELSON, Florida                 JOHN E. SUNUNU, New Hampshire
BARACK OBAMA, Illinois               NORM COLEMAN, Minnesota
BENJAMIN L. CARDIN, Maryland         DAVID VITTER, Louisiana
JIM WEBB, Virginia                   CHUCK HAGEL, Nebraska

                                  (ii)



                            C O N T E N T S

                              ----------                              
                                                                   Page

Coleman, Hon. Norm, U.S. Senator from Minnesota, statement.......     6
    Prepared statement...........................................     7
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, opening 
  statement......................................................     1
Frazer, Hon. Jendayi, Assistant Secretary of State for African 
  Affairs, Department of State, Washington, DC...................     7
    Prepared statement...........................................    11
    Responses to questions submitted by Senator Joseph R. Biden, 
      Jr.........................................................    60
Hess, Hon. Michael, Assistant Administrator of the Bureau for 
  Democracy, Conflict, and Humanitarian Assistance, USAID, 
  Washington, DC.................................................    14
    Prepared statement...........................................    17
Menkhaus, Dr. Ken, professor of political science, Davidson 
  College, Davidson, NC..........................................    42
    Prepared statement...........................................    45
Morrison, Dr. J. Stephen, executive director, Africa Program, 
  Center for Strategic and International Studies, Washington, DC.    49
    Prepared statement...........................................    51
Shinn, Hon. David, adjunct professor of international affairs, 
  George Washington, University, Washington, DC..................    36
    Prepared statement...........................................    38
Sununu, Hon. John E., U.S. Senator from New Hampshire, opening 
  statement......................................................     4
    Prepared statement...........................................     5

                                 (iii)




     EXPLORING A COMPREHENSIVE STABILIZATION, RECONSTRUCTION, AND 
                 COUNTERTERRORISM STRATEGY FOR SOMALIA

                              ----------                              


                       TUESDAY, FEBRUARY 6, 2007

                               U.S. Senate,
                   Subcommittee on African Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room SD-628, Dirksen Senate Office Building, Hon. Russ Feingold 
(chairman of the subcommittee) presiding.
    Present: Senators Feingold, Cardin, Webb, Coleman, and 
Sununu.

  OPENING STATEMENT OF HON. RUSSELL D. FEINGOLD, U.S. SENATOR 
                         FROM WISCONSIN

    Senator Feingold. Good morning. The hearing will come to 
order.
    On behalf of the Senate Foreign Relations Subcommittee on 
African Affairs, I welcome all of you to the hearing of this 
subcommittee in the 110th Congress.
    Before we begin, I want to offer a warm welcome to my 
friend Senator Sununu in his new capacity as the ranking member 
of this subcommittee. I'm excited to have such a dedicated and 
hardworking Senator as a ranking member, and look forward to 
working with him on the full range of pressing issues facing 
the Continent of Africa. And even though the Senator has not 
been here for many years, I have had many good opportunities to 
work with him and find him to be an excellent person to work 
with.
    As members of this subcommittee know, there are few issues 
that we deal with here that are partisan or ideological. On my 
recent trip to Ethiopia and Kenya, where we were focusing on 
this Somalia issue, I told everybody that this subcommittee's 
always been a place where there hasn't been partisan divides, 
and it's a good example of what can be done. And that was very 
well received by everybody in the African countries we visited. 
We all want to end violence and promote democracy, defend human 
rights and reduce poverty, and improve security in a continent 
beset with challenges but bestowed with almost limitless 
potential.
    So, welcome, Senator Sununu, I look forward to working 
closely with you.
    With that said, I think it's only right that we start the 
110th Congress off with a hearing that addresses one of the 
biggest challenges we face in Africa today, and that is 
Somalia. We have entitled today's hearing ``Exploring a 
Comprehensive Stabilization, Reconstruction, and 
Counterterrorism Strategy for Somalia.'' I look forward to 
today's conversation with the administration and expert 
witnesses about how to address the persistent, ongoing, and 
dangerous instability in Somalia and throughout the Horn of 
Africa.
    This subcommittee, under the chairmanship of both 
Republicans and Democrats, has, for years, been pushing the 
executive branch to develop a comprehensive strategy to address 
instability in Somalia, as well as the security and 
humanitarian concerns that have resulted from almost two 
decades of instability there. As I and my other colleagues have 
argued in the past, Somalia actually represents the new types 
of challenges that face our country and our friends and allies 
around the world. It represents the complex threats that the 
U.S. Government must learn to identify and contain combat in 
the post-9/11 world. It is challenging the way our Government 
is organized, and is pressing us to make changes to the way we 
deal with lawlessness and weak governments, corruption, and 
humanitarian tragedy.
    It is also forcing us to reevaluate how our Government 
works to eliminate terrorist safe havens and what tools we have 
available to not only defeat terrorists, but also to defeat the 
conditions that allow the terrorists to plan, train, recruit, 
and ultimately attack the United States or others. If we have 
learned anything since
9/11, it is that we can no longer ignore instability in places 
like Somalia. Unfortunately, after traveling to the region, 
extensive study, conversations with the administration, 
briefings and hearings, it is clear to me that we have yet to 
effectively organize our Government to deal with these 
challenges. I hope that this hearing will help clarify a new 
strategy for going forward that will seize the current 
opportunity to help the Somali people dig themselves out of 
almost two decades of chaos.
    To that end, I urge our witnesses, and particularly those 
on our first panel, to focus on what we've learned as a 
government, what we're doing differently and what we expect to 
get done in the coming weeks, months, and years. I know that 
both of our first witnesses are working hard on this very 
difficult issue.
    Let me tell you why I'm so concerned about the progress our 
Government is making on Somalia. I chaired a hearing on this--
by this subcommittee exactly 5 years ago, on February 6, 2002, 
on this exact topic. During that hearing, we discussed policy 
options, we discussed terrorism and al-Qaeda, we discussed the 
absence of a transitional government, we discussed the need for 
a more farsighted, comprehensive U.S. Government policy. Most 
importantly, and most troubling to me now in today's context, 
we also discussed how important Somalia was to our national 
security in a post-9/11 context and how it needed to do more. 
Walter Kansteiner, Assistant Secretary of State for Africa at 
that time, began his opening statement by pointing out, ``that 
it is far easier to prevent failure than to cope with its 
consequences.'' He then admitted on the record, ``Somalia has 
not been on the U.S. Government's radar screen since, really, 
about 1994.''
    Now, following the capture of Mogadishu by the Islamic 
Courts Union last summer, the subcommittee met again on this 
very same issue. Under the leadership of then-Chairman 
Martinez, we brought together most of the witnesses who sit 
before us again this morning to get a sense of the 
administration's plan for responding to that major development. 
In her testimony, Assistant Secretary Frazer assured us, 
``President Bush and Secretary Rice have made it a priority to 
confront the ongoing turmoil in Somalia with a multilateral 
coordinated strategy.''
    Now, we took this statement seriously; so seriously, in 
fact, that we legislated on the issue. As you know, Secretary 
Frazer, I obtained the support of a bipartisan coalition of 
colleagues, including my friend from Minnesota, Senator 
Coleman, to include an amendment in the FY07 defense 
authorization bill that required the administration to devise 
and share with Congress a comprehensive stabilization and 
reconstruction strategy for Somalia, as you outlined in your 
testimony in front of the committee last July. The 90-day 
deadline for receipt of this report passed last month, with no 
sign of the report and no sign of a strategy. We received no 
sign or call or letter suggesting that the administration was 
any closer to not only complying with the law, but creating a 
comprehensive plan for addressing the urgent interrelated 
challenges we face in Somalia and throughout the Horn of 
Africa.
    In other parts of the world, we've seen what happens when 
decisions are made and executed without the benefit of a long-
term comprehensive strategy backed by sufficient resources and 
political commitment. I want our Government to avoid making bad 
or rash decisions, or no decisions at all, and I want to ensure 
that our approach to Somalia takes into consideration the 
complex nature of the problem and the need to view Somalia 
comprehensively, not just through a counterterrorism lens. 
Unfortunately, we have only a very limited amount of time to 
establish the conditions that will lead to political stability 
in Somalia, and that window is closing fast.
    Before I turn to my colleague Senator Sununu, let me note 
that my colleagues, both Senator Coleman and Klobuchar of 
Minnesota, have joined me today in introducing a bill that 
addresses these major challenges and authorizes significant 
resources to ensure that this multilateral endeavor to 
stabilize and secure Somalia is more successful than the last. 
The bottom line is that, unless the United States works 
aggressively with Somalis, regional actors, and the 
international community to create stability in Somalia, that 
country will remain what it has been since the early 1990s, a 
haven for terrorists and warlords and a source of instability 
in a critical region. That is why this hearing is so critical. 
Whether and how we respond to the issues at hand will have a 
profound and long-lasting impact on the people of Somalia, on 
stability in the region, and, above all, on our national 
security.
    With that said, let me also introduce our two panels before 
I turn to Senator Sununu.
    On our first panel, we have two witnesses from the United 
States Government. We have Secretary of State for African 
Affairs, Dr. Jendayi Frazer, and Mr. Michael Hess, the 
Assistant Administrator for the Bureau for Democracy, Conflict, 
and Humanitarian Assistance at the U.S. Agency for 
International Development. We've asked each of them to address 
current U.S. Government efforts relating to Somalia and to 
discuss key challenges, resource requirements, and the detailed 
components of the administration's strategy for Somalia. To the 
extent possible, we'd like to avoid general talking points or 
generic outlines and hope this can be a frank and detailed 
conversation.
    We're very glad that you're both here today, and we 
appreciate your willingness to testimony. Thank you, and 
welcome.
    Our second panel will feature a range of individuals that 
are well qualified to speak on the unique challenges related to 
this complex country and the impact that developments there 
have on neighboring nations in the volatile Horn of Africa, as 
well as on U.S. national security.
    We're privileged to welcome Dr. David Shinn back to the 
subcommittee. Ambassador Shinn was a U.S. Ambassador to 
Ethiopia between 1996 and 1999. He has testified in front of 
this committee a number of times and always provides a 
pragmatic and balanced view of the situation in the region. He 
currently serves as an adjunct professor of international 
affairs at George Washington University.
    We look to you, Mr. Ambassador, for analysis of the 
regional and international dynamics relating to developments in 
Somalia, as well as your opinion of how the United States and 
international community can most effectively address the 
challenges we faced here.
    After him, we'll hear from Dr. Ken Menkhaus, also no 
stranger to the Senate. Professor Menkhaus is a professor of 
political science at Davidson College and has written 
extensively on the political and security dynamics in Somalia.
    We look to you, Professor, to help paint a detailed picture 
of dynamics on the ground and the conditions that have emerged 
as a result of recent developments. We hope that your analysis 
will help this committee have a better sense for the 
complexities we need to address.
    And finally, we welcome back Dr. Steve Morrison, who's the 
executive director of the Center for Strategic International 
Studies Africa Program. We've asked Dr. Morrison to speak to 
Somalia-related developments here in Washington, and we hope 
that he'll lay out the challenges and requirements for 
developing an effective strategy to address instability in 
Somalia and throughout the Horn.
    I'd like to extend a special welcome to each of you this 
morning. I know I speak for my colleagues when I tell you how 
much we appreciate your coming here today. Your insights will 
inform and guide our discussion of immediate actions with 
serious, lasting implications for the Somali people, for the 
Horn of Africa, and for the United States and international 
security, and I'm looking forward to hearing from you.
    And it is now my pleasure to turn to the distinguished 
ranking member, Senator John Sununu.

           OPENING STATEMENT OF HON. JOHN E. SUNUNU,
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Sununu. Thank you very much, Senator Feingold. And 
welcome to our witnesses today. I appreciate the very kind 
comments in your opening, and look forward to working with you 
on this subcommittee, the importance of which I think you've 
outlined very effectively in your opening statement.
    I ask consent to submit a more formal written statement for 
the record.
    Senator Feingold. Without objection.
    Senator Sununu. But I do want to make a few points. And one 
is to underscore how complex the situation in Somalia is. And 
that doesn't mean that it--those complexities are an excuse for 
not making more progress or not being clearer about our 
approach to the situation, but it means that we can learn a 
great deal about dealing with complex situations. The economic, 
political, religious, and civil society issues that have to be 
dealt with in Somalia have few parallels anywhere else in the 
world, and we need to understand that. Of course, this hearing 
is a small part in developing a better picture of these 
complexities. But if we develop better methodologies for 
addressing the failures and the weaknesses in these areas, then 
I think we'll have a framework that can be applied elsewhere in 
the world.
    And that brings me to the second point, which is the need 
to develop a better framework and organizational structure, as 
you described, for addressing failed states around the world, 
because of the natural implications that this can have for 
national security. There's been a great deal of discussion 
about both organizational and policy changes within State and 
other organizations in the Federal Government to better equip 
those organizations for addressing these problems and the 
security consequences that can flow from a failed state. And I 
hope that our discussions today might help illuminate the kinds 
of organizations, emphasis, focus that might come from our 
Government and other governments, in order to be more 
effective, not just in Somalia, but in other parts of the world 
where we see the breakdown of economic structures, judicial 
structures, government structures, necessary for stability.
    And the third point I'd want to make is how important it is 
to develop a regional approach. You mention this in your 
remarks. But all of the players in the region have both a 
responsibility and an interest in addressing this situation in 
Somalia, they have different roles to play. And, while it's 
true that there are competing interests in the region, I think 
all of the regional players are affected by a lack of security, 
movement of militias, weapons, financing for terrorism, and the 
instability that results. So, I think there's an opportunity 
for the United States to take the lead in this effort, but 
there's also a very real opportunity for regional players to 
become a more significant part of the solution.
    So, again, I thank you for putting the hearing together--
thrilled to be a part of this subcommittee and look forward to 
the witnesses' testimony.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Sununu follows:]

   Prepared Statement of Hon. John E. Sununu, U.S. Senator From New 
                               Hampshire

    Good morning, Mr. Chairman. Thank you for holding this important 
hearing in order to explore a comprehensive stabilization, 
reconstruction, and counterterrorism strategy for Somalia.
    The Horn of Africa and especially the country of Somalia have been 
plagued with violence for a number of years, and attempts to quell the 
terror have had limited success. Since the early 1990s, there have been 
over a dozen conferences, supported by countries in the Horn, the 
United Nations, and others to try and bring peace to the region. As the 
United States and other countries around the world are engaged in 
another theatre, the issues that have plagued Somalia, while not 
overlooked, have been somewhat overshadowed.
    The United States should continue to stay engaged in efforts to 
combat terrorism and bring about a lasting peace in Somalia. I applaud 
the steps taken by the State Department toward building a strategy for 
stabilization, reconstruction, and counterterrorism operations in 
Somalia, and it is my hope that they continue these worthwhile efforts. 
Achieving peace is vial to the interests of Somalia, the Horn of 
Africa, and the United States.
    Mr. Chairman, I thank you for the opportunity to explore such a 
timely and important issue, and as this is the first hearing of the 
Subcommittee on African Affairs, I look forward to working with you on 
many more important issues throughout the 110th Congress. Finally, I 
would like to thank the witnesses for taking time out of their busy 
schedules to join us here today.
    Thank you.

    Senator Feingold. Thank you very much, Senator Sununu.
    And now, I'd like to turn to Senator Coleman, who has shown 
a strong interest in leadership in this area, for any remarks 
he has.

  STATEMENT OF HON. NORM COLEMAN, U.S. SENATOR FROM MINNESOTA

    Senator Coleman. Very briefly, Mr. Chairman.
    First, I want to thank you for your leadership. I am very, 
very grateful for the leadership that you have consistently 
displayed on this issue. The legislation that we talked about, 
just introduced, that--which you championed, will hopefully 
help us do those things that have to be done to bring some 
stability to the region, including, you know, pushing for a 
special envoy. We've got to move Somalia up on the radar 
screen. We've talked about that with State Department, but this 
is a way to do that.
    So, I simply want to say thank you. Thank you for this 
hearing, thank you for your strong voice, thank you for your 
consistent efforts. I'm pleased to join with you. We estimate 
there may be 70,000 Somalians in Minnesota. This is personal 
for me. This impacts a lot of folks in my community.
    If I--just one bit of optimism, with the challenges we 
face, understanding that Somalia is on the front line in the 
war on international terrorism today, what happens there does 
have an impact. With the recognition that you've talked about, 
that we need to approach this with a broad-range plan--it's not 
an isolated piece. We'd have to have a strategy that--a 
comprehensive plan to deal with Somalia, but there is great 
diversity of the Somalian community back in Minnesota, and I 
have seen folks come together on this. And so, if a diverse 
community back home can come together with a--the goal, the 
commitment being greater stability, peace in the region, then 
we should figure out a way to work with them to make that 
happen.
    So, again, I ask unanimous consent to submit a more 
detailed formal statement, but I do want to thank you for your 
leadership on this issue.
    Senator Feingold. Without objection.
    [The prepared statement of Senator Coleman follows:]

  Prepared Statement of Hon. Norm Coleman, U.S. Senator From Minnesota

    I am privileged to represent the State of Minnesota, which is home 
to the largest community of Somalis outside of Somalia. It is estimated 
that there may be up to 70,000 Somalis back home, and this thriving 
community has enriched the fabric of our State through its vibrant 
culture. It is through my friendship with our Somali community that I 
have become familiar with the harsh realities of the situation on the 
ground in Somalia, and the tragic implications this has had on the many 
families that have ultimately sought refuge in our State. It is my 
hope, and the hope of our Somali community, that we can help to one day 
establish a peaceful and stable environment in their homeland. And 
while I understand that the challenges we face are very large, the 
commitment of our Somali Community here in the United States to work 
for stability in Somalia provides me with hope that we can make 
progress if we all work together.
    I have worked to be a voice of the Somali community in Washington, 
DC, as I believe the United States should be actively involved in 
helping Somalia overcome many years of neglect and civil strife. And I 
am very happy to participate in this hearing today with my 
distinguished colleague, Senator Feingold, who has demonstrated great 
compassion and leadership on the issue of Somalia.
    Over the past year, we have witnessed a great deal of instability, 
conflict, and even natural disasters in Somalia. As we will hear from 
our witnesses today, this situation stems from a variety of factors, 
not the least of which include a lack of functional institutions, 
economic opportunity, and the involvement of neighbors in its internal 
affairs. It has long been my belief that the magnitude of the 
humanitarian crisis in Somalia, which cannot be underestimated, should 
compel the United States to be more involved in the country's affairs. 
Additionally, however, the United States has vital national security 
interests at stake in Somalia. A Somalia without a functioning 
government poses a grave risk to its neighbors as well as the 
international community. As we saw in the case of Afghanistan, states 
without a functioning government can become a haven for terrorists and 
destabilize an entire region.
    It is for these reasons that I am currently working with my 
colleague, Senator Feingold, on legislation addressing Somalia. This 
legislation not only seeks to focus greater resources on dealing with 
this very critical situation, but also works to shape our overall 
policy into one that will address the root causes of instability. As 
Senator Feingold and I have pointed out repeatedly, we are long overdue 
for a comprehensive U.S. strategy that aligns all of our objectives in 
Somalia, which include political, economic, development, and 
counterterrorism. Indeed, Somalia has served as a clear example of the 
dangers involved in policies that are too narrowly focused on one 
objective.
    While the events that have unfolded in Somalia over the past year 
have been extremely unfortunate, I only hope that at the very least 
they will serve to spark the United States and international community 
toward greater concerted action in Somalia.
    I greatly admire the leadership of Senator Feingold on this issue, 
and am grateful that he has organized this timely hearing. I look 
forward to hearing from our distinguished witnesses.

    Senator Feingold. I thank the Senator from Minnesota.
    I'd just point out that some of the Somalis that lived in 
Minnesota have had the wisdom to move to Wisconsin, so----
    [Laughter.]
    Senator Coleman. Must be a warmer climate over there. 
[Laughter.]
    Senator Feingold. Yeah. Not today. [Laughter.]
    Anyway, thanks to both of you. And now, we'll turn to the 
first panel.
    Secretary Frazer.

STATEMENT OF HON. JENDAYI FRAZER, ASSISTANT SECRETARY OF STATE 
    FOR AFRICAN AFFAIRS, DEPARTMENT OF STATE, WASHINGTON, DC

    Dr. Frazer. Good morning, and thank you, Chairman Feingold, 
Ranking Member Sununu, Senator Coleman.
    At this first hearing of the Africa Subcommittee, I would 
like to congratulate both Senator Feingold and Senator Sununu 
on your new positions. I look forward to working closely with 
you and other members of this subcommittee during the 110th 
Congress.
    Thank you, Mr. Chairman, for calling a hearing on this 
timely and important issue, and for your focus on Africa, more 
generally.
    With your permission, I would like to submit my written 
testimony for the record.
    Senator Feingold. Without objection.
    Dr. Frazer. Thank you.
    I'm pleased to have this opportunity to publicly discuss 
U.S. policy and engagement with Somalia and the Horn of Africa.
    Somalia occupies a unique space, both geographically and 
strategically. The country sits at the crossroads of sub-
Saharan Africa and the Near East. The region's overall security 
is directly affected by Somalia's internal situation. And, for 
the first time in 16 years, Somalis have a real opportunity to 
rebuild their nation. We will assist Somalis to realize this 
opportunity by restoring effective governance that is 
representative of the full spectrum of Somali society.
    A lot has happened, and significant diplomacy has been 
undertaken since I last appeared before this subcommittee in 
July 2006. At the time, the United States was encouraged by the 
June 22, 2006, agreement between the Somali Transitional 
Federal Institutions and the then-Union of Islamic Courts. The 
United States supported this agreement, which came to be known 
as the Khartoum Declaration, including the points of mutual 
recognition and cessation of hostilities.
    While negotiations initially offered great promise, by late 
July the actions of the Islamic Courts (CIC) were beginning to 
run counter to the spirit and the reality of dialog. 
Immediately after the Khartoum Declaration, the Union of 
Islamic Courts was renamed the Council of Islamic Courts, and 
Hassan Dahir Aweys, designated by both the United States and 
United Nations as a terrorist, was elected to be the chairman 
of the CIC Consultative Council. During the following months, 
extremist elements within the CIC, particularly the radical al-
Shabaab organization, hijacked the broader Court's movement, 
driving the CIC toward an agenda of military expansion and 
aggression.
    Despite international efforts to encourage dialog between 
the CIC and the TFIs, the CIC chose to repeatedly violate the 
terms of the Khartoum Declaration, due to the September 18, 
2006, terrorist bombing attack on the Parliament building in 
Baidoa, the takeover of Kismaayo on September 25, and military 
buildups around Baidoa and Puntland. These were decisive 
moments. Ultimately, the CIC miscalculated in its decision to 
pursue a military agenda and to refuse to join the governance 
process and the TFIs through peaceful dialog. When the 
Transitional Federal Government and Ethiopia launched a 
counteroffensive against the CIC in December, the CIC's 
structure disappeared rapidly, driven in large part by the 
withdrawal of support from the Somali population. The 
extremists within the CIC very clearly did not reflect the will 
of Somalis, as represented by civil society and their 
government.
    In the last 2 months, I have traveled to the region twice, 
conveying the strong commitment of President Bush and Secretary 
Rice to the people of Somalia. The most striking lesson I took 
away from my trip to the region in early January is this, the 
Somali people are ready for peace and tired of war. While the 
TFIs are not yet ready to stand entirely on their own, they 
offer a promising vehicle forward for Somalia.
    At this moment of opportunity, we are proceeding 
purposefully. We are pursuing a strategy to establish 
stability, move forward with a process of inclusive dialog and 
reconciliation, and begin reconstruction in Somalia. Under my 
leadership and that of President Bush's Special Assistant for 
Africa, Mr. Bobby Pittman, there is a growing interagency team 
working together to advance the United States policy objectives 
in Somalia. That interagency policy team is part of our broader 
strategy working with the International Contact Group on 
Somalia multilaterally and very much coordinating with our 
regional partners, especially Kenya, Ethiopia, and Djibouti, 
but also with Ghana, Yemen, and Tanzania.
    While the overall U.S. policy goals remain consistent--to 
eliminate the threat of terrorism and improve regional 
stabilities by supporting the reestablishment of effective 
governance and respond to the humanitarian needs of the Somali 
people--the changing dynamics inside Somalia require us to 
constantly adapt to ensure that our engagement remains 
effective.
    To take advantage of the current window of opportunity 
available in Somalia, our immediate policy priorities are: 
Encourage inclusive dialog among Somali stakeholders; mobilize 
support to build the governance capacity of the TFIs; provide 
development and humanitarian assistance to the Somali people; 
achieve deployment of an African stabilization force; and 
continue to track the terrorists to prevent Somalia remaining a 
safe haven for terrorism. These goals are also shared by our 
partners in the international community.
    The United States believes that the key to long-term 
stability in Somalia now lies in a process of inclusive dialog 
and reconciliation within the framework of the transitional 
federal charter. The United States has encouraged the 
leadership of the TFIs to make clear, through statements and 
actions, that they are committed to an inclusive process of 
dialog and reconciliation. We have been clear. We see a role in 
the future of Somalia for all those who renounce violence and 
extremism, and we strongly believe that the TFG must reach out 
to groups that have previously been marginalized from the 
political process.
    In addition, we remain deeply troubled that foreign 
terrorists affiliated with al-Qaeda have succeeded in 
establishing a safe haven in Somalia. Somalia's continued 
exploitation by terrorist elements threatens the stability of 
the entire Horn of Africa region. We will, therefore, continue 
to take measures to deny terrorists' safe haven in Somalia, as 
well as the ability to plan and operate from Somalia.
    The United States Government remains committed to 
neutralizing the threat that al-Qaeda poses to all Americans, 
Somalis, and citizens in neighboring Horn of Africa countries. 
The administration will continue working with Somalis, 
regardless of clan, religious, or secular affiliation, to 
eliminate this common threat.
    As we look ahead to the next 2 years, Somalia's assistance 
needs may look overwhelming. To support our policy objectives 
and help achieve a lasting solution in Somalia, the United 
States has identified three priority areas for U.S. or foreign 
assistance: Security and stabilization, No. 1; second, 
political dialog and reconciliation; and, third, service 
delivery and governance capacity.
    Sufficient funding is required to enable the United States 
to successfully and adequately pursue these three important 
policy goals.
    Under the first objective of security and stabilizations, 
funds would be used to support the deployment of the African 
Union Mission in Somalia (AMISOM), security sector reform, and 
post-conflict stabilization activities.
    Under the second objective, of political dialog and 
reconciliation, funds would be used to support reconciliation 
and dialog through support for conflict mitigation, civil 
society, and media freedom.
    Last, under our third foreign assistance priority, funding 
would be used to improve the ability of the Transitional 
Federal Institutions to provide social services and build the 
government's capacities, other TFIs, at the local, regional, 
and national level.
    To help achieve these objectives, the administration has 
included a request for $60 million for Somalia in the 
President's supplemental funding request for FY 2007. That $60 
million figure includes $20 million in humanitarian assistance 
and $40 million to support a peacekeeping operation. We are 
working to identify additional resources for these efforts, 
which includes the $40 million that Secretary Rice announced in 
January, bringing our total FY07 to $100 million for Somalia.
    However, post-conflict institution-building is ultimately a 
locally led enterprise. If international donor support is to be 
effective, these resources must be linked to progress made by 
Somalis in achieving broadbased political dialog and 
reconciliation on the part of clans, religious leaders, 
business people, civil society activists, women's leaders, and 
other political groups. Along with our African and 
international partners, the United States will remain engaged 
in supporting this much-needed process of inclusive dialog, 
while also attending to the humanitarian needs of the Somali 
people.
    The situation inside Somalia has changed a great deal since 
July, when I last testified before this body about Somalia. The 
United States, along with our African regional partners and 
international partners, have made significant progress toward 
supporting the TFIs and moving toward the rapid deployment of a 
peacekeeping force since last July. Work remains to be done, 
but the political process is going to be inclusive and 
successful. One important factor continues to work strongly in 
our collective favor: The Somali people are tired of war and 
yearn for what the TFIs offer--namely, stability, security, and 
governance. Our comprehensive strategy for Somalia is already 
showing promise, and we are likely to see more progress in the 
coming months.
    Thank you, and I would be happy to take your questions.
    [The prepared statement of Dr. Frazer follows:]

 Prepared Statement of Hon. Jendayi E. Frazer, Assistant Secretary for 
          African Affairs, Department of State, Washington, DC

                              introduction
    Good morning, and thank you, Chairman Feingold and Ranking Member 
Sununu. At this first hearing of the Africa Subcommittee, I 
congratulate you both on your new positions. I look forward to working 
closely with you and the other members of this subcommittee during the 
110th Congress. Thank you for calling a hearing on this timely and 
important issue. I am pleased to have this opportunity to publicly 
discuss U.S. policy and engagement with Somalia and the Horn of Africa. 
Mr. Chairman, given your longstanding interest in Somalia, I am not at 
all surprised that this is the subject of the subcommittee's first 
hearing.
    Somalia occupies a unique space, both geographically and 
strategically. The country sits at the crossroads of sub-Saharan Africa 
and the Near East. The overall security of the region is affected by 
Somalia's continued lack of internal stability. In this regard, U.S. 
interests in Somalia and in the Horn of Africa region are to promote 
and support regional stability and representative government, to 
eliminate any platform for al-Qaeda or other terrorist operations, to 
provide humanitarian assistance in the wake of drought, flooding, and 
16 years of near-constant conflict in southern and central Somalia, and 
to work with governments in the region to transform the countries 
through investing in people and good governance and promoting economic 
growth.
    For the first time in 16 years, Somalis face the prospect of 
rebuilding their nation. We have a real opportunity to help Somalis 
restore effective governance that is representative of the full 
spectrum of Somali society. We are pursuing a strategy to help 
establish stability, move forward with a process of inclusive dialog 
and reconciliation, and begin reconstruction within Somalia. Under my 
leadership, there is a growing interagency team working together to 
advance our policy objectives in Somalia.
                            decisive moments
    A lot has happened since I last appeared before this subcommittee 
in July 2006. At the time, the United States was encouraged by the June 
22, 2006, agreement between the Somalia Transitional Federal 
Institutions (TFIs) and the then-Union of Islamic Courts. The United 
States supported this agreement, which came to be known as the Khartoum 
Declaration, including the points of mutual recognition and cessation 
of hostilities.
    While negotiations initially offered great promise, by late July 
the actions of the Islamic courts were beginning to run counter to the 
spirit and the reality of dialog. Immediately after the Khartoum 
Declaration, the Union of Islamic Courts was renamed the Council of 
Islamic Courts (CIC) and Hassan Dahir Aweys, designated by both the 
United States and the United Nations as a terrorist, was elected to be 
the chairman of the CIC Consultative Council. On July 19, 2006, the CIC 
attempted to provoke Ethiopia into a broader conflict by advancing 
toward the interim capital of Baidoa. During the following months, 
extremist elements within the CIC--particularly the radical al-Shabaab 
organization--hijacked the broader courts movement, driving the CIC 
toward an agenda of military expansion and aggression. Despite 
international efforts to encourage dialog between the CIC and the TFIs, 
the CIC chose to repeatedly violate the terms of the Khartoum 
Declaration through the takeover of Kismaayo, the September 18, 2006, 
terrorist bombing attack on the Parliament building in Baidoa, and 
military buildups around Baidoa and Puntland.
    These were decisive moments. Ultimately, the CIC miscalculated in 
its decision to pursue a military agenda and to refuse to join the 
governance process and the TFIs through peaceful dialog. When the 
Transitional Federal Government (TFG) and Ethiopia launched a 
counteroffensive against the CIC in December, the CIC structure 
disappeared faster than anyone had anticipated. However, they were also 
weakened immensely by the withdrawal of support from the Somali 
population. The extremists within the CIC very clearly did not reflect 
the will of Somalis, as represented by civil society and their 
government.
                        a hopeful moment in time
    Following these developments, Secretary of State Condoleezza Rice 
sent me back to the region to conduct regional diplomatic efforts. My 
trip included visits to Djibouti, Ethiopia, Kenya, and Yemen in support 
of broader efforts to achieve lasting stability in Somalia.
    The most striking lesson I took away from my early January trip to 
the region is this: Somalis are ready. Somalis are ready for peace; 
they are tired of war. While the TFIs are not yet ready to stand 
entirely on their own without international support, they offer a 
promising vehicle forward for Somalia. While developments on the ground 
have maintained a frenetic pace, there are many reasons to be hopeful.
    In an effort to make the most of this moment of opportunity, we 
have engaged in conversations and negotiations with Somalia's various 
stakeholders and regional governments. This approach is in keeping with 
Secretary Rice's Transformational Diplomacy approach. I have met with 
my counterparts in African countries and regional organizations, and I 
have been seeking the advice and counsel of African officials and 
diplomats to resolve this situation.
    During my trip at the turn of the year, I participated in a series 
of high-level diplomatic meetings, conveying the United States 
Government's position on various issues. I spoke with President 
Museveni of Uganda and representatives of the African Union in 
Ethiopia. I also met with the leadership of the TFIs, including 
President Abdullahi Yusuf, Prime Minister Ali Mohamed Ghedi, and former 
Parliament Speaker Shariff Hassan Sheikh Adan, and representatives of 
Somali civil society.
    On January 5, Kenyan Foreign Minister Raphael Tuju, Norway's Deputy 
Foreign Minister Raymond Johansen, and I cochaired a meeting of the 
International Contact Group on Somalia. This gathering demonstrated the 
depth of the international community's commitment to supporting a 
sustainable political solution in Somalia through broad-based national 
dialog and providing appropriate development, security, and 
humanitarian assistance.
    The Contact Group issued a communique at the meeting's end that 
recognized the historic opportunity now within the grasp of the Somali 
people, as they seek a sustainable political solution based on the 
framework of the Transitional Federal Charter. Further, the Contact 
Group affirmed the importance of inclusive governance and additionally 
emphasized that funding to facilitate the deployment of a stabilization 
force in Somalia, based on U.N. Security Council Resolution 1725, 
remains urgent. This communique and the other sentiments expressed by 
members of the Contact Group that day demonstrate the unity and common 
priorities of the international community on Somalia. These themes 
continued during my consultations and bilateral meetings on the margins 
of the January 29-30 African Union Summit in Ethiopia.
                            political dialog
    The United States strategy for Somalia includes three major 
priorities in Somalia. First, encourage inclusive political dialog 
between the leadership of the TFIs and other key Somali stakeholders. 
Second, mobilize international support to help build the governance 
capacity of the Transitional Federal Institutions and provide 
development and humanitarian assistance for the Somali people. And 
third, although perhaps most urgent, move forward with the deployment 
of an African stabilization force in Somalia.
    These objectives remain consistent with the objectives that I 
articulated to this subcommittee in July 2006. While the United States 
does not believe that the now-defunct Council of Islamic Courts should 
be reconstituted in order to engage in dialog with the TFIs, the United 
States believes that the key to long-term stability in Somalia now lies 
in a process of inclusive dialog and reconciliation leading to the 
formation of an inclusive government of national unity within the 
framework of the Transitional Federal Charter.
    To a great extent, this process will rely on the government's 
willingness to reach out and create an inclusive political process. 
This remains the greatest challenge. The leaders of the TFIs must serve 
as symbols and architects of this process. The statement that President 
Yusuf made to the Contact Group regarding his intention to engage with 
Somali stakeholders was a positive step. He further announced at the 
African Union Summit the intention of the TFIs to convene a national 
reconciliation conference inside Somalia involving all key stakeholders 
in an inclusive process of dialog.
    In recent months, the United States has encouraged the leadership 
of the TFIs to make clear through statements and actions that they are 
committed to an inclusive process of dialog and reconciliation. We have 
been clear--we see a role in the future of Somalia for all those who 
renounce violence and extremism, and we strongly believe that the TFG 
must reach out to groups that have previously been marginalized from 
the political process.
    The TFIs must reach out to key groups inside Somalia, including: 
Clan leaders, business and civil society, women's groups, and religious 
leaders, among others. These groups, particularly those in Mogadishu, 
must also demonstrate their willingness to engage with the TFIs and to 
work together constructively. Additionally, this means that we suggest 
that the leadership of the TFIs reach out to religious authorities, 
including the diverse range of local, organic courts affiliated with 
various clans. The courts' members were, of course, also a 
heterogeneous group from the outset, so there are moderate individuals 
who could be drawn into the larger, official political process.
    This is not an either/or proposition. The security and political 
components of the policy I have just described must function as two 
simultaneous efforts, progressing toward the same end point.
                         security and stability
    This dialog must move forward very quickly to reach a sustainable 
solution, on the basis of the Transitional Federal Charter, in order to 
stabilize the situation in Mogadishu and allow all components of the 
TFIs to relocate to the country's capital. Rapid deployment of an 
African stabilization force in Somalia will help create a secure 
environment in which this political process can move forward and will 
help instill confidence in the Somali people that the peace process is 
moving forward.
    The United States is working closely with the African Union (AU), 
as they prepare for the deployment of a stabilization force to help 
provide a secure environment for political inclusiveness and 
transition. On January 19, the AU Peace and Security Council endorsed 
the deployment of this force. Several AU member-states have expressed 
their desire to contribute troops or provide logistical support for 
this effort. Uganda came forward first, offering to deploy 1,500 troops 
based on United Nations Security Council Resolution 1725. Ugandan 
President Museveni's initial offer has since been followed by other 
countries, including Ghana, Nigeria, and Burundi, expressing a desire 
to provide troops for this effort.
    As a crucial component of our strategy in Somalia, the United 
States is actively supporting the deployment of this force, 
particularly the Ugandan contingent, which requires support with 
strategic transportation, equipment, and other logistics. Immediate 
U.S. support includes $2 million for strategic transportation and $8 
million for equipment for the Ugandan force, as well as technical 
assistance. With our help, and following approval by the Ugandan 
Parliament, we anticipate that the Ugandans can deploy to Somalia as 
early as this week.
    This remains very much an AU-led and AU-coordinated effort. The 
United States and other donor partners are working closely with the AU, 
which recently selected Ghana's President John Kufuor as its chair. The 
AU is already working on plans to strengthen the Ugandan deployment 
with further troop deployments, and Kenyan Foreign Minister Tuju 
traveled to several African countries last month to solicit additional 
troop contributions.
    Africans have developed a strong record of conflict resolution and 
peacekeeping in recent years. As Nigeria took the lead in Liberia and 
South Africa did in Burundi, we are hopeful that Africans will once 
again help what President Mbeki has called one of their ``sister 
countries'' move beyond strife and toward reconciliation.
    However, it is the Somali people who must be responsible for local-
level security without resorting to the warlordism of the past. We have 
advised the TFIs to make development of a civilian police force a 
priority, and ultimately the political process should lead to the 
formation of a unified military representative of all of Somalia's 
clans. For that reason, the United States has supported the call of the 
International Contact Group on Somalia to quickly ``establish local-
level stability throughout Somalia, effective Somali security forces, 
including a civilian police force.'' These efforts will be supported by 
the deployment of the stabilization force to Somalia, which will 
provide a secure environment in which a political process can move 
forward and effective security institutions can be developed.
    In addition, we remain deeply troubled that foreign terrorists 
associated with al-Qaeda have succeeded in establishing a safe haven in 
Somalia. Somalia's continued exploitation by terrorist elements 
threatens the stability of the entire Horn of Africa region. We will 
therefore take strong measures to deny terrorists safe haven in 
Somalia, as well as the ability to plan and operate from Somalia. In 
this regard, the United States continues to work with East African 
countries to build their capacity to counter terrorism and criminality 
that originates in Somalia. The United States Government remains 
committed to neutralizing the threat that al-Qaeda poses to all 
Americans, Somalis, and citizens in neighboring Horn of Africa 
countries. The administration will continue working with Somalis, 
regardless of clan, religious, or secular affiliation to eliminate this 
common threat.
            supporting the transitional federal institutions
    Developments in Somalia remain highly fluid. The fragile, nascent 
TFIs are only beginning to function and are only beginning to control 
territory, while spoilers and extremists continue to undermine 
stability.
    U.S. engagement seeks to support the TFIs and encourage 
reconciliation among key Somali stakeholders. Given the absence of 
functioning governance institutions in Somalia for over 15 years, the 
rebuilding of governance and security institutions will largely be 
starting from scratch and will require significant external assistance. 
It is critically important that the United States help enhance the 
governance capacity of the TFIs, as well as support efforts to build 
governance capacity at the local and regional level. In this regard, 
U.S. assistance aimed at supporting short-term quick impact and high 
visibility, will be a critical element in building support for the TFIs 
and demonstrating to the Somali people that the TFIs offer a means of 
improving their overall quality of life.
    At the January 5, 2007, meeting of the International Contact Group 
on Somalia, I signaled the administration's intention to take concrete 
steps to assist Somalia. We are providing $40.5 million in new 
assistance for Somalia. This contribution is a reflection of our 
commitment to, and engagement with, Somalia's revitalization. As 
announced by Secretary of State Condoleezza Rice on January 4, this 
total includes $16.5 million in humanitarian assistance and $24 million 
that will be used to support both deployment of a peace support mission 
and provide development assistance for the Somali people. We are also 
requesting $60 million in FY 2007 supplemental funding for Somalia, 
including $40 million for peacekeeping and $20 million in humanitarian 
assistance for those affected by the current humanitarian crisis in 
Somalia.
    We have signaled clearly that the United States intends to remain 
engaged for the long term in Somalia. Other donor partners have also 
agreed to identify additional resources for Somalia. However, post 
conflict institution-building is ultimately a locally led enterprise. 
If international donor support is to be effective these resources must 
be linked to progress made by Somalis in achieving broad-based 
political dialog and reconciliation on the part of clans, religious 
leaders, business people, civil society activists, women's leaders, and 
other political groups.
    We understand that this is an ongoing process, and that we have not 
reached the end. Along with our African and international partners, the 
United States will remain engaged in supporting this much-needed 
process of inclusive dialog, while also attending to the humanitarian 
needs of the Somali people.
                               conclusion
    The situation inside Somalia has changed a great deal since July. 
The United States, along with our international partners, have made 
significant progress toward supporting the TFIs and moving toward the 
rapid deployment of African peacekeeping forces.
    Work remains to be done, if the political process is going to be 
inclusive and successful. While we welcome the positive statements from 
Somali leaders and encourage them to take positive action, we are 
cognizant of the challenges we face--which could include a lack of 
political will from some elements of the TFIs to engage in such a 
process.
    One important factor continues to work strongly in our collective 
favor. The Somali people are tired of war and yearn for what the TFIs 
offer--stability, security, and governance. Our comprehensive strategy 
for Somalia is already showing promise, and we are likely to see more 
progress in the coming months.
    Thank you, and now I would be happy to take your questions.

    Senator Feingold. Thank you, Madam Secretary, for your 
remarks.
    And now, we turn to Mr. Hess.

STATEMENT OF HON. MICHAEL HESS, ASSISTANT ADMINISTRATOR OF THE 
 BUREAU FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN ASSISTANCE, 
   U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Hess. Hopefully this is on.
    Thank you, Chairman Feingold, Ranking Member Sununu, and 
Senator Coleman. It is an honor to appear before you today to 
discuss the U.S. Government assistance and a way forward in 
Somalia.
    With your permission, sir, I will submit my written 
statement for the record.
    Senator Feingold. Without objection.
    Mr. Hess. Having just returned from a trip to the Horn of 
Africa, where we have a Disaster Assistance Response Team 
monitoring the needs in Somalia, in the Somalia region of 
Ethiopia and the Kenya/Somalia border, I plan to give you a 
picture today of the humanitarian situation in Somalia and a 
sense of how our humanitarian and development partners on the 
ground regard the situation. I will also discuss what we see as 
a way forward and what USAID is going to assure that the way 
forward brings peace and stability to a population that has 
suffered more in 1 year than most do in a lifetime.
    In July, when I addressed this subcommittee, I spoke about 
the disastrous toll that the drought had taken on central and 
southern Somalia, and the 1.7 million agropastoralists and 
pastoralists whose lives and livelihoods had benefited from the 
robust U.S. Government humanitarian response and the generosity 
of the American people. Since July, these same Somalis have 
experienced some of the worst flooding they can remember. 
Although the death toll has been minimal, 255,000 people were 
displaced, crops were destroyed, and livestock were lost. 
Flooding has seriously hindered the delivery of humanitarian 
assistance, particularly food, to the region. During my trip to 
the region, I had the opportunity to visit Dadaab camp. It's a 
refugee camp 80 kilometers inside the Kenya/Somali border, 
where I heard firsthand from Somalis about the situation in 
their home country. The camp hosts some 170,000 refugees, 98 
percent of whom were Somalis who have fled the country. 
However, in the last year, when the Islamic Courts were making 
advances in Somalia, nearly 35,000 additional people crossed 
over from Somalia and are--now reside in that camp.
    There are two points I would like you to remember about 
this camp. First, it has been there for 16 years and has a 
global acute malnutrition rate of 22 percent, which is 7 
percent over the emergency level, even though the people in 
these camps receive a full ration. Points out the challenges 
that we face and what Fred Cuny taught us a long time ago, that 
it's more than just food that prevents malnutrition.
    Second, the families with whom I spoke, particularly the 
women, were not willing to return to Somalia when peace 
returned. That is a striking comment, and one on which we'll 
have to work in the future.
    Across the border in Somalia, our partners estimate that 
the most recent round of conflict has displaced 40,000 people 
in south and central Somalia. Almost all of those have returned 
to their homes, and a number of people estimate that the acute 
food crisis has dropped by more than half. However, as the 
rains and floodings begin to ease, our partners are prepared 
for an increase in water and mosquito-born diseases, such as 
cholera, dysentery, and malaria, which pose a particularly 
serious threat to children under the age of 5, the elderly, and 
the populations already compromised by undernourishment.
    Livelihoods are also at risk. In addition to human disease, 
animal disease is a threat. Rift Valley fever is suspected in 
hundreds of recent animal deaths and several human deaths in 
southern Somalia, where conflict has made it difficult to 
collect and transport samples for confirmation. Rift Valley 
fever can disseminate herds of cattle and sheep, and it poses a 
serious health threat to the human--weakened human population. 
It is also a potential--disastrous potential economic effect on 
Somalia and its neighbors. Our U.N. partners and NGO partners 
are working together with the Transitional Federal Government 
to identify the fever and treat humans and animals.
    So far, in fiscal year 2007, the U.S. Government has 
provided nearly $16 million to mitigate the impacts of the 
drought, floods, and conflict resulting in the displacements in 
Somalia and across its borders. This assistance builds on a 
carryover of resources from $92 million in 2006. The 
availability of these resources permitted our partners to 
respond immediately and robustly to the flood emergency in the 
fall and ensured a strong food pipeline through the first 
quarter of this fiscal year.
    USAID's ongoing humanitarian programs are targeted in the 
drought- and flood-affected areas of southern and central 
Somalia and addresses food insecurity, nutrition, health, 
water, sanitation, and hygiene. Our partners have well-
established programs and a thorough knowledge of the local and 
regional issues affecting the populations they serve. It is 
this experience that has enabled them to continue to serve 
beneficiaries and implement programs throughout the political 
turmoil of the past year.
    While in Nairobi, I met with our partners. I was uniformly 
impressed with their dedication and the knowledge each one 
brings to their work. None of the groups felt that the conflict 
occurring around the withdrawal of the courts had dramatically 
increased humanitarian needs, but they all stressed the need to 
continue support of drought and flood victims.
    Access appears to be improving in many parts of Somalia. 
The Government of Kenya has pledged to soon reopen its borders 
for humanitarian deliveries into Somalia, and most of our NGO 
partners are back in Somalia.
    I also met with the United Nations country team for 
Somalia. They have an impressive team. The head of the UNDP, 
which returned to Mogadishu--had just returned from Mogadishu, 
where he led a U.N. delegation to assess the possibility of the 
return of U.N. personnel. It is clear that the United Nations 
regards the next few months as a window of opportunity to 
support Somalis to achieve peace and security in their country.
    The U.N. country team outlined a set of priorities for the 
next 6 months which bridge humanitarian, stabilization, and 
initial reconstruction efforts. These priorities also include 
building the capacity of key Transitional Federal Institutions, 
strengthening the security sector, and assisting the 
Transitional Federal Institutions in jump-starting urgent basic 
social services, particularly in education and health. In 
addition, they will ensure that the livelihood and job 
creations launched earlier in this year will be community-based 
activities.
    Our own priorities are much the same as these, since we 
helped them draft the plan. Last year, we programmed $7.9 
million in FY06 development assistance to strengthen the 
capacity of civil society, support conflict mitigation, address 
basic education needs, including distance learning and teacher 
training, to increase access to water through rehabilitation of 
urban water systems, and development of rural water services.
    Also, while I was in Nairobi I met with Admiral Hunt, 
commander of Combined Joint Task Force Horn of Africa, with 
whom we have been working very closely throughout the entire 
Horn. I am optimistic with--that with the coordination 
established between the State Department, USAID, and CJTF-HOA, 
and the Somalia working group in Nairobi, we are creating a 
coordination model capable of serving both our national 
security interests and the interests of the people of Somalia 
and the Horn of Africa.
    I would like to outline for you our priorities over the 
next 90 days.
    First, we will continue to respond to humanitarian 
contingencies which may arise in this volatile area.
    Second, we will identify opportunities to increase training 
and capacity-building in our current emergency programs, 
particularly in nutrition, health, and water services, jump-
starting long-term efforts addressing the delivery of critical 
public services.
    Third, we will develop a post-conflict Somalia livelihoods 
recovery strategy similar to the lessons learned in the 
pastorals recovery and alternative livelihood programming we 
have been doing in Ethiopia and Kenya and other parts of 
Africa.
    Fourth, support the efforts made on the part of the United 
Nations and our nongovernmental partners to ensure that the 
ongoing emergency response provides a foundation for recovery 
and reconstruction.
    Fifth, ensure that the protection of humanitarian space 
becomes part of the diplomatic dialog with the Transitional 
Federal Government.
    In closing, I want to remind the committee of the dire 
situation on which I reported last July, and that, for the 
people of Somalia, the situation has only gotten worse. But we 
are here today talking about a window of opportunity, when it 
may be possible to help Somalia find a pathway out of political 
chaos, hunger, and suffering. Seizing this opportunity will 
increase the chances that the region, as a whole, finds its way 
to a stable, peaceful, and productive future. The approaches 
that I have outlined today are our best efforts at maximizing 
this opportunity, and we look forward to working with you and 
the interagency to make sure that these opportunities are not 
lost.
    Mr. Chairman, I thank you, again, for having me back to 
talk about Somalia and what we hope to accomplish there. I look 
forward to responding to any questions you or members of this 
subcommittee may have.
    [The prepared statement of Mr. Hess follows:]

 Prepared Statement of Hon. Michael E. Hess, Assistant Administrator, 
   Bureau for Democracy, Conflict, and Humanitarian Assistance, U.S. 
          Agency for International Development, Washington, DC

    Mr. Chairman, and distinguished members of the subcommittee, it is 
an honor to appear before you today to discuss U.S. Government 
assistance and the way forward in Somalia.
                               background
    Having just returned from a trip to the Horn, where we have a 
Disaster Assistance Response Team monitoring needs in Somalia, the 
Somali region of Ethiopia and the Kenya-Somalia border, I hope to be 
able to give you a good picture of what the humanitarian situation 
currently is in Somalia and a sense of how our humanitarian and 
development partners on the ground regard the situation. I will also 
discuss what we see as a way forward and what USAID is doing to assure 
that the way forward brings peace and stability to a population that 
has suffered more in one year than most do in a lifetime.
    In July, when I last addressed this subcommittee, I spoke about the 
disastrous toll that drought had taken on central and southern Somalia, 
and of the 1.7 million pastoralists and agro-pastoralists whose lives 
and livelihoods have benefited from a robust USG humanitarian response 
and the generosity of the American people.
    Since July, these same Somalis have experienced some of the worst 
flooding they can remember. Although deaths were minimal, 255,000 
people were displaced, crops were destroyed, and livestock was lost. 
The worst of it occurred in November and December, but as recently as 
last week flooding displaced 1,000 people in the Lower Shabelle valley. 
Flooding has seriously hindered the delivery of humanitarian 
assistance--particularly food assistance--with entire convoys being 
mired for weeks at a time.
                                 dadaab
    During my trip I had the opportunity to visit Dadaab refugee camp--
80 km from the Kenya-Somalia border--and hear first-hand about the 
situation in Somalia. The camp hosts some 170,000 refugees, 98 percent 
of whom are Somalis fleeing their country. The majority of them have 
been there since 1991. The protracted refugee situation is testimony to 
the longstanding chaos in Somalia. Just last year, when the Islamic 
courts were making advances in Somalia, nearly 35,000 people crossed 
over to Kenya into the refugee camps. Owing to security concerns, Kenya 
closed its border to new asylum-seekers on January 3 and forcibly 
returned several hundred from the border transit center. Acknowledging 
shared security concerns, the USG has pressed the Kenyan Government to 
reopen the border to legitimate asylum-seekers.
    At the Dadaab camp, I witnessed a food aid distribution--supported 
in part through our Food for Peace program--and met with some of the 
newer arrivals. The severe flooding that hit Somalia also hit 
northeastern Kenya, including the refugee camps where the State 
Department and Department of Defense worked to support UNHCR's flood 
relief efforts with U.S. military airdrops. In the section for new 
arrivals, in sparse vegetation and sandy soil, refugees had made homes 
out of branches and plastic sheeting. They rely completely on the 
international community for their survival. Aid agencies admit that 
they have not been able to get water services out to the new arrivals 
area that has received tens of thousands of people in the last year, 
and women now living there asked that I look into the situation. 
Digging wells is a difficult job in Dadaab. Water is some 150 meters 
below the sandy soil, requiring technical expertise that is not easily 
found. Emergency refugee funding made available by the State Department 
will help alleviate the pressures caused by increased refugee numbers.
    Standing among the women and children gathered in the new arrivals 
area, I could only imagine the difficult journeys these families had 
made to get to this desolate place--most had come from the Juba River 
Valley or Gedo Region--hundreds of kilometers away--and the long, hard 
road that lies ahead for them. When I spoke to these women, they talked 
of insecurity, uncertainty, and threats. They spoke of family members 
they had left behind in Somalia. They spoke of the hardships they had 
fled and their fear of having to return.
                     new threats and opportunities
    Across the border in Somalia, our partners estimate that the most 
recent round of conflict displaced 40,000 people in south and central 
Somalia. In contrast, almost 90 percent of those displaced by flooding 
have been able to return home, and the number of people estimated to be 
in an ``acute food security crisis'' has dropped by more than one half.
    However, as the rains and flooding begin to ease, our partners are 
preparing for an explosion of water and mosquito borne diseases such as 
cholera, dysentery, and malaria, which pose a particularly serious 
threat to children under 5, the elderly and the population already 
compromised by undernutrition.
    Livelihoods are also at risk because, in addition to human disease, 
animal disease is also a threat. Rift Valley Fever is suspected in 
hundreds of recent animal deaths and several human deaths in southern 
Somalia, where conflict has made it difficult to collect and transport 
samples for confirmation. Rift Valley Fever (RVF) can decimate herds of 
cattle and sheep, and it poses a serious health threat in weakened 
human populations. Its potential economic impact on Somalia and its 
neighbors is significant: An outbreak in Somalia in 1997 led to a ban 
on imports of livestock from all Somali ports to the Persian Gulf 
States and the loss of as much as $100 million in revenue within 2 
years. To curb rumors of RVF, the Transitional Federal Government (TFG) 
recently announced new regulations regarding the identification and 
treatment of the disease in Somalia. Our U.N. and NGO partners have the 
capacities and resources to assist in controlling the spread and 
mitigating the impact of the disease; but in order to do so they will 
require the ability to collect and share information and test results 
in a transparent, proactive fashion.
    So far in fiscal year 2007, the USG has provided nearly $16 million 
to mitigate the impact of drought, floods, conflict, and resulting 
displacement within Somalia and across its borders. This assistance 
builds on carryover resources from $92 million provided in fiscal year 
2006. The availability of these resources permitted our partners to 
respond immediately and robustly to the flood emergency in the fall, 
and ensured the existence of a strong food pipeline in the first 
quarter of this fiscal year.
    USAID's ongoing humanitarian programs are targeted in the drought 
and flood affected areas of south central Somalia and address food 
insecurity, nutrition, health, water, sanitation, and hygiene. Our 
partners have well-established programs and a thorough knowledge of 
local and regional issues affecting the populations they serve. It is 
this experience that has enabled them to continue to serve 
beneficiaries and implement programs throughout the political turmoil 
of the past year.
                          partner perspectives
    While in Nairobi in mid-January of this year, I had the opportunity 
to meet with all of our partners. I was uniformly impressed with the 
dedication and knowledge each one is bringing to their work. None of 
the groups I met with felt that the conflict occurring around the 
withdrawal of the courts had dramatically increased humanitarian needs, 
but they all stressed the need for continued support of drought and 
flood victiDr. After the withdrawal of the Islamic courts, our NGO 
partners took a cautious, ``wait and see'' attitude. Access appears to 
be improving in many parts of Somalia, the Government of Kenya has 
pledged to soon reopen its border for humanitarian deliveries into 
Somalia, and most of our NGO partners are back in Somalia. However, 
they made clear that as we move forward, humanitarian space will need 
to be protected, and they ask that this become a part of our diplomatic 
dialog with the Transitional Federal Government.
    I was very impressed with the United Nations Country Team for 
Somalia, which includes the Office for the Coordination of Humanitarian 
Affairs (OCHA), the World Health Program, UNHCR, the World Food 
Program, the Food and Agriculture Organization, UNICEF, and the U.N. 
Development Program (UNDP). They are completely engaged, and they 
talked openly about the challenging and critical issues they are 
currently facing on the ground. The head of UNDP had just returned from 
Mogadishu, where he led a U.N. delegation to assess the possibility of 
a return of U.N. personnel. It is clear that the United Nations regards 
the next few months as a window of opportunity to support Somalis to 
achieve peace and security in their country. The U.N. Country Team has 
outlined a set of priorities for the next 6 months which bridge 
humanitarian, stabilization, and initial reconstruction efforts. These 
priorities also include building the capacity of key Transitional 
Federal Government Institutions, strengthening the security sector, and 
assisting the Transitional Federal Government jump-start urgent basic 
social services--particularly in education and health. In addition, 
they will ensure that livelihood and job creation be launched early in 
these community-based recovery activities.
                            usaid priorities
    Our own priorities are much the same. Last year we programmed $7.9 
million in FY06 development assistance to strengthen the capacity of 
civil society, support conflict mitigation, address basic education 
needs--including distance learning and teacher training--and increase 
access to water through the rehabilitation of urban water systems and 
development of rural water services. In 2007--in accordance with USG 
policy aimed at strengthening the capacity of governing institutions--
development assistance is planned to reinforce the capacity of 
executive, legislative, and local authorities. Our assistance will also 
reinforce the TFG's capacity to deliver integrated social services--
particularly in the areas of health, water, and education--thereby 
enhancing its credibility among diverse constituencies. Through support 
for ongoing reconciliation programming, we are facilitating the broad-
based, inclusive participation of diverse civil society actors in 
Somalia's social, political, and economic decisionmaking. Through these 
venues, our development assistance programming serves to mitigate the 
underlying threats and conditions that encourage extremism, 
instability, and terrorism.
    While I was in Nairobi, I had the opportunity to meet with Admiral 
Hunt, commander of our Combined Joint Task Force (CJTF-HOA) in the 
Horn. He reports that coordination and collaboration between the task 
force and USAID staff--both in the Horn and here in the United States 
prior to his deployment to Djibouti--has been invaluable to the task 
force's civilian-military operations. From a USAID perspective, we feel 
that the best and most efficient use of USG resources in the Horn is 
likely to come from good coordination and a mutual understanding of the 
roles, responsibilities, capacities and strengths of our respective 
agencies and operating units. Over the past 12 months, USAID, State and 
the Department of Defense have worked hard to operationalize an 
approach in Somalia and the region that truly reflects the three Ds--
Diplomacy, Development, and Defense. Defined as pillars to our national 
security in the 2002 U.S. National Security Strategy, the elevation of 
development--as a key pillar--is seen as reinforcing diplomacy and 
defense, reducing long-term threats to our national security by helping 
to build stable, prosperous, and peaceful societies. I am optimistic 
that with the coordination established between USAID, State, and CJTF-
HOA in the Somalia Working Group in Nairobi, we are creating a 
coordination model capable of serving both our own national security 
interests and the interests of the people of Somalia and the Horn.
                               next steps
    I'd like to share with you USAID's priorities over the next 90 
days. Over this period we will use the resources available to us to:

  <bullet> Respond effectively to humanitarian contingencies which may 
        arise in this very volatile situation;
  <bullet> Identify opportunities to increase training and capacity-
        building in our current emergency programs--particularly in 
        nutrition, health, and water services--jump-starting longer 
        term efforts addressing the delivery of critical public 
        services;
  <bullet> Develop a post-conflict Somalia livelihood recovery 
        strategy, using lessons learned in recent pastoralist recovery 
        and alternative livelihood programming in Ethiopia and Kenya 
        and in post-conflict programming in other parts of Africa;
  <bullet> Support efforts made on the part of the United Nations and 
        our nongovernmental partners to ensure that ongoing emergency 
        response provides a foundation for recovery and reconstruction;
  <bullet> Ensure that the protection of humanitarian space becomes 
        part of the diplomatic dialog with the Transitional Federal 
        Government.

    I'll close by sharing with you something that has been in the back 
of my mind ever since I received the invitation to provide testimony 
today.
    On July 11 of last year, I presented a picture of a people who were 
on the edge of a precipice, with years of chaos and conflict, 
catastrophic drought, disease, malnutrition, and a staggering loss of 
livestock resulting in the near collapse of an entire livelihood 
system. That was a true picture, and had anyone asked me that day to 
imagine that this same, beleaguered population would have to withstand 
months of devastating floods followed by renewed conflict, I would have 
found it nearly impossible to do. It is still hard for me to do, 
despite knowing that this is exactly what has happened since July.
    But we are here today talking about a window of opportunity when it 
may be possible to help Somalia find a pathway out of political chaos, 
hunger, and suffering. Seizing this opportunity will increase the 
chances that the region as a whole finds its way to a stable, peaceful, 
and productive future. The approaches that I have outlined today are 
our best efforts at maximizing this opportunity, and we look forward to 
working with you and the Interagency, to make sure that these 
opportunities are not lost.
    Mr. Chairman, I thank you again for having me back to talk about 
Somalia and what we hope to accomplish there. I look forward to 
responding to any questions that you and members of the subcommittee 
may have.

    Senator Feingold. Thank you, Mr. Hess. And thank you, to 
the panel, for your testimony.
    I'll begin the questioning in a minute, but first I want to 
say how pleased I am that Senator Webb has joined us--not only 
today, but that he has asked, and has become a member of this 
subcommittee. He's already made the effort to meet with me to 
talk about the work of the subcommittee, and I'm extremely 
pleased to have his expertise.
    Senator Webb. Thank you, Mr. Chairman. It's a pleasure to 
be a member of the subcommittee, and I look forward to working 
with you on all the issues under its jurisdiction.
    Senator Feingold. Thank you, Senator.
    And I'll start up with--we'll do a 10-minute round.
    Secretary Frazer, can you tell us why the administration 
has failed to comply with the requirement in law that it 
provide a report on Somalia, including a strategy for dealing 
with instability in Somalia?
    Dr. Frazer. Should I just take that question, or are you 
going to ask a number of questions?
    Senator Feingold. Well, I'm going to ask you a lot of 
questions, but first I'm----
    Dr. Frazer. Well, can I just----
    Senator Feingold [continuing]. Asking you why you haven't 
complied with the law.
    Dr. Frazer. Sorry, no; I'm used to----
    Senator Feingold. I thought I'd start off with that one. 
[Laughter.]
    Dr. Frazer. I'm used to getting five or six questions at 
once.
    Senator Feingold. Oh, you'll get some of that, but I----
    Dr. Frazer. But I----
    Senator Feingold. This one, I want to hear what you have to 
say right away.
    Dr. Frazer. Well, let me just say, sir, that we haven't 
failed to comply with the law. What we're trying to do is to 
develop, as you have asked, and that Congress has asked, a 
comprehensive strategy. Let me just state that part of 
developing a comprehensive strategy is actually responding to 
the events on the ground and actually implementing the strategy 
that we have in place. And I know that we've spent quite a lot 
of time dealing with very fast-moving events in the Horn of 
Africa, building the multilateral approach that you in our 
consultations, private and public, have called for, and 
building the coalition with our regional partners. And so, I 
think that the spirit of the request from the Congress is to 
have effective impact on the Horn of Africa, and I think that 
we've demonstrated that over the past year.
    And so, we certainly are working on trying to get that 
strategy paper to you, but we're also very much focused on 
implementing an effective strategy, which I think that we have 
seen in the results that are taking place in Somalia today. 
When you requested that strategy, the Transitional Federal 
Government was isolated and sitting in Baidoa; today, it's in 
Mogadishu. And so, I think we've got to do both things, and 
we're trying to manage both things.
    Senator Feingold. Well, I--you know, I understand that. I 
am concerned, though, about, essentially, the lack of 
communication about not following the law. I look at it as 
putting the cart before the horse. Without the benefit of a 
shared and coordinated vision, I think it's difficult to make 
tactical or daily decisions and respond to the changing 
environment. So, this report, which should have been in by now, 
would hopefully provide the general goal, the objectives, the 
tasks, and the contingencies involved in pursuing our interests 
in the region. It should take into account the changes on the 
ground and the fluid nature of the situation.
    Look, Secretary, the Congress passed a law and expressed 
its desire to understand how the administration was going to 
deal with instability in Somalia, about how it addressed the 
terrorist safe havens there, and it troubles me, obviously, as 
a Senator and somebody who was involved in passing that law, 
that the administration would sort of put this to the side 
without any real communication.
    So, I will urge you, Madam Secretary, to take immediate 
action to comply with the law that was passed and signed by the 
President.
    Now let me turn to the current situation on the ground. You 
and I have talked about this before, and I'd like an update. 
What is the status of the withdrawal of Ethiopian troops on the 
ground?
    Dr. Frazer. The Ethiopian troops have started their 
withdrawal, Senator. They started withdrawing forces in 
January. And, as you know in your discussions, having traveled 
to Ethiopia and met, yourself, with Prime Minister Meles, and 
in my discussions with him, as well, and in Secretary Rice's 
discussions, Prime Minister Meles said that he wanted to be out 
of Somalia within 2 weeks. More than 2 weeks have passed. Many 
in the international community have urged him to slow down that 
timeline because of fear that there would be a vacuum created 
by the too-rapid withdrawal of Ethiopian forces. So, the 
withdrawal has started, but it hasn't been completed. We would 
expect it to be a phased process, as we phase in the African 
peacekeeping forces.
    Senator Feingold. What percentage of the troops--Ethiopian 
troops--have been withdrawn?
    Dr. Frazer. Well, you'd have to have a concrete number of 
how many were there in the first place to decide on that 
percentage, and that number has varied. Some people have said 
2,000, some people have said up to 8,000 forces. So, I don't 
know what the----
    Senator Feingold. Is it your sense that most of the troops 
have been withdrawn, or just a small percentage?
    Dr. Frazer. It's not my sense that most of the troops have 
withdrawn at this point, no.
    Senator Feingold. Will the AU peacekeeping force be 
deployed before the last Ethiopian troops are withdrawn from 
Somalia?
    Dr. Frazer. That is the idea. And we would hope to soon 
have the Ugandan battalion--in particular. President Museveni 
has promised to put in 1,500 troops, and we've been working 
with them. Right now, the Ugandan Parliament has to approve 
that and the Minister of Defense put a motion before Parliament 
on January 31. They take 3 working days to decide. Their 
opposition was out, so they're trying to give opposition time 
to actually consider the deployment of those Ugandan forces. As 
soon as that Parliament approves the decision, we will be 
prepared to help them deploy.
    Senator Feingold. And I know it's your strategy to support 
the TFG, but what happens if the TFG is unable to create the 
political agreements and the consensus needed to govern the 
country effectively? I know it's hard to discuss this, because 
that's not what we want to happen. But, given this country's 
history, I think we need to be prepared for the possibility. 
So, would you talk a little bit about what that strategy might 
be?
    Dr. Frazer. Well, we're planning for the TFG to be able to 
build the consensus necessary, and we think that they have made 
good progress in that regard in a very short period. We 
continue to see the Prime Minister reaching out to the various 
clans. The TFG President at the African Union Summit announced 
a reconciliation conference that would include all 
stakeholders. They've made appointments of the mayor to 
Mogadishu, and the deputy mayor, that have been broadly 
accepted and supported. So, we will continue to work with them 
to actually accomplish inclusive governance.
    Senator Feingold. I'm pleased----
    Dr. Frazer. That's going to be----
    Senator Feingold [continuing]. To hear that, but what's the 
backup plan if they can't?
    Dr. Frazer. That's not going to be easy, as you said, 
because they actually are going against the trends of the last 
16 years.
    Senator Feingold. But what's the backup plan if they can't?
    Dr. Frazer. Well, I'm getting to that, Senator, because I 
think that the backup plan is based in the effort to actually 
try to achieve the inclusive dialog. We would expect that if 
that's not going to happen, the analysis is that it would 
probably be a very narrow community--two communities that would 
create a counter to this inclusive dialog. That's a particular 
sub-sub clan which needs to be brought into the dialog, and 
that's remnants of the Islamic Courts and foreign terrorists.
    So, what would happen? We expect to be able to reach out to 
that sub-sub clan and deny those foreign terrorists that 
support of the community. If it doesn't work, it's very likely 
going to be because of outside influence, it's going to be 
because of outside support for terrorists. And we would hope to 
have, as you know, a peacekeeping force there----
    Senator Feingold. Yeah.
    Dr. Frazer [continuing]. That would help to provide some of 
the stability while they create the space to drain the swamp, 
essentially, of----
    Senator Feingold. All right. One--and----
    Dr. Frazer [continuing]. Those foreign terrorist elements.
    Senator Feingold [continuing]. And on that point, of 
draining the swamp--in December, shortly before the Ethiopian 
incursion, you stated that the Council of Islamic Courts was, 
``controlled'' by al-Qaeda in East Africa. And this 
characterization implicitly compared the CIC to the Taliban, 
the last regime to be under the control of al-Qaeda. However, 
DNI head Negroponte was quoted in the Washington Post, saying, 
``I don't think there are hard-and-fast views,'' on the 
question. Asked whether the CIC was the next Taliban, he 
stated, ``I don't think I've seen a good answer.'' And in 
January, DIA Director General Maples testified to the Senate 
Intelligence Committee that, ``al-Qaeda is assessed to be 
assisting the radical Islamist elements of the CIC with 
leadership and training, with hopes of establishing a future 
Taliban-like state.''
    Now, that testimony would seem to contradict your assertion 
that al-Qaeda had already asserted control of the CIC. Would 
you like to take this opportunity to revisit your earlier 
statement?
    Dr. Frazer. Thank you for the opportunity to clarify my 
earlier statement and to say that quotes from the newspapers 
are hardly quotes at all, because, certainly, people change 
what one has actually said to them when they write it in 
newspapers. But what I specifically said was that the Council 
of Islamic Courts was a heterogenous group which had been 
hijacked by terrorist elements, people like Hassan Abdullah al-
Turki, designated under U.S. Executive Order 13224 of the 
United Nations Security Council 1267. What I said was it is led 
by Dahir Aweys, designated under U.S. Executive Order 13224 and 
under United Nations Security Council Resolution 1267. What I 
said was that the al-Shabaab militia specifically was of the 
extremist order and was led by individuals like Aden Hashi 
Ayro, who was trained by al-Qaeda in Afghanistan prior to 2001, 
and that those individuals had hijacked what was a heterogenous 
Islamic Courts. And so, I was much more specific than what----
    Senator Feingold. All right.
    Dr. Frazer [continuing]. Was quoted in the Washington Post.
    Senator Feingold. All right. I hope to get back to this in 
another round, but thank you for that. And, since I'm running 
out of time here, I do want to at least ask a question of Mr. 
Hess.
    And thank you for your patience. After your recent travel 
to the region, can you give us a sense for what impact the 
ongoing humanitarian challenges are having and will have on the 
political efforts in Mogadishu?
    Mr. Hess. Yes, sir. We feel that the humanitarian community 
is pulling together with the United Nations, as well, to take 
this opportunity to work with the TFIs and the TFG to build 
capacity in service delivery. And so, this humanitarian 
assistance that's being provided will assist in building that 
capacity and delivering services to the people who need it the 
most, especially in terms of education, health, and water and 
sanitation.
    Senator Feingold. Thank you, Mr. Hess, I hope to return to 
you, but now I'll turn to the ranking member, Senator Sununu.
    Senator Sununu. Thank you very much.
    And let me pick up the questioning. Mr. Hess, could you 
speak, with a little bit more detail, about the activities of 
the Disaster Recovery Team, the DART team, that is operating? 
What's the size of the group? You know, what activities have 
they prioritized at the highest level? And what are the 
weaknesses of a DART group like this? You know, what areas are 
they not ideally suited to address? And, obviously, therefore, 
these are areas that we should, you know, find other ways to 
complement their efforts.
    Mr. Hess. Yes, sir. We looked at--we don't take the 
formation of a Disaster Assistance Response Team lightly. When 
you create one of these, as you know, it sends a signal and a 
message, which was exactly what we were trying to do. We were 
concerned about the humanitarian situation starting in 
December, and the fact that it might deteriorate as people were 
on the move during a bad time.
    Senator Sununu. When was the response team first put 
together?
    Mr. Hess. In the end of December, sir----
    Senator Sununu. OK, December----
    Mr. Hess [continuing]. During the holiday.
    Senator Sununu [continuing]. Of 2006, so that it's only----
    Mr. Hess. 2006.
    Senator Sununu [continuing]. Been in place for a couple of 
months. And the----
    Mr. Hess. Absolutely.
    Senator Sununu [continuing]. And the size?
    Mr. Hess. Right now, it's about eight members.
    Senator Sununu. OK.
    Mr. Hess. But it varies. One of the members is sitting 
behind me now. So, they rotate occasionally.
    In terms of what they're focusing on, we look at the 
primary basic humanitarian needs. We are concerned about the 
global acute malnutrition rates in south-central Somalia, where 
we have seen rates of 22, 23, some places high as 30 percent of 
global acute malnutrition rate, in the Gedo region. Again, we 
can't address that specifically with food, but food insecurity 
is a large part of that. And certainly, we look at food as a 
big component of that. And our partners--World Food Program and 
CARE--are doing a good job of distributing food. But we also 
have to look at water sanitation, and they are focused at 
working--the team is focused very closely on working with our 
partners who are rehabilitating wells, digging new bore holes. 
And the flooding, unfortunately, especially in the lower Juba 
region, disrupted a lot of the work we had been doing on water 
and sanitation, so that was a problem. We're also worried about 
the health situation from the Rift Valley fever, malaria, 
mosquito-born diseases, diarrhea, and cholera, which we were--
we saw some minor outbreak of that--but, again, working with 
the Disaster Assistance Response Team, had the ability to 
respond quickly to cordon off the area where the cholera 
initially broke out.
    The areas where we'd like to see some more work, where we 
are looking at, is how we can facilitate more directly the 
capacity-building of the government. And we have--our Office of 
Transition Initiatives has a member on that Disaster Assistance 
Response Team looking for the opportunity to get in and 
directly facilitate the building of that capacity along with 
UNDP.
    Senator Sununu. Are--do any of the response team personnel 
work directly in Somalia, or are they primarily located in 
Kenya--or----
    Mr. Hess. They are----
    Senator Sununu [continuing]. Exclusively located in Kenya?
    Mr. Hess [continuing]. All in Kenya. They have not been 
able to get in yet.
    Senator Sununu. You said that the--most of our NGO partners 
are back operating again in Somalia. What level of 
effectiveness have they reached? And is there more capacity 
that they can build, or that we can help them build within the 
country?
    Mr. Hess. The points that we tried to make with the--with 
our NGO partners is building local capacity at the same time 
that they try to deliver the assistance. As you can imagine, 
most of what they do is through local partners, but we're 
trying to build up that capacity so that they can carry on 
through the challenging period, if you will. And we want to 
make sure that they have that capacity specifically on the 
monitoring side, because if--we're concerned about this global 
acute malnutrition rate, we're concerned about the spread of 
Rift Valley fever and other mosquito-born diseases. And if we 
can build that monitoring capacity on the local side, we'll be 
a lot further ahead.
    Senator Sununu. How is the team's relationship with the 
Government of Kenya and/or Government of Ethiopia? Either 
intentionally or not, have those governments--or do those 
governments have anything in place that acts as a restriction 
on our ability to have the positive impact?
    Mr. Hess. It's a good point. We have a good working 
relationship with both governments, because we've had teams and 
we have had missions in the area for a long time. One of the 
areas which we are working very closely with the Kenyan 
Government on now is the Dadaab camp. As I pointed out, the 
global acute malnutrition rate is pretty high. One of the 
things that we're looking at is using area around the camps to 
increase alternate livelihood development there. What we're 
looking at is the planting of alternate crops so that we can 
vary the diet of the people in the camps, and also to drill 
some more wells in the region. But, as you know, when you're 
talking about a water table that is vulnerable to begin with, 
that's a problem. The Government of Kenya worked very closely 
with us during the flooding of the Dadaab camp. As you 
remember, one of the sub-camps, Ifo, was wiped out. And the 
Kenyan Government worked very closely with us to help alleviate 
that situation. So, they have a good working relationship with 
the government.
    Senator Sununu. Thank you.
    Assistant Secretary Frazer, you mentioned the negotiations 
that are expected to take place at the end of February and some 
of the outreach of the contact participation that needed to 
take place at the sub-clan level. What other participants are 
important to the success of those negotiations? And are there 
any parties that have been reluctant to participate?
    Dr. Frazer. Yes; thank you, Senator. Specifically, the 
inclusive dialog is already taking place, with the Prime 
Minister and the President reaching out to various 
stakeholders. The key stakeholders would be, I believe, the 
Somalia business community, the business leaders, which 
provided financing for the courts in the past and will be an 
important part of providing the assistance and support for the 
Transitional Federal Government. Also, it's very clear that the 
Ayr sub-sub clan, in the past, had been a base of support for 
the Islamic Courts, and that there are some concerns about 
trying to make sure that they feel that they are adequately 
represented, or represented--that they have their own 
representatives as part of the Transitional Federal Government 
and part of the inclusive dialog. So, I think that those are 
two key sectors.
    Somali women are extremely strong and, I think, very much, 
reaching out to the women's groups, and civil society groups 
will be key to building that inclusive dialog.
    Senator Sununu. But you expect each of these groups to be 
effectively represented in the February discussions?
    Dr. Frazer. Yes. I think you're talking about the National 
Reconciliation Conference. I would expect them to be 
represented, most certainly, as well as the Somali diaspora.
    Senator Sununu. You spoke a little bit about the troops 
committed by Uganda; 1,500 troops under the African Union. What 
other commitments have been made for troop participation? And 
what does the United States do--or what can the United States 
do--what have we offered to do to support the logistics and 
deployment of those troops?
    Dr. Frazer. For the Ugandan troops, we've offered--we have 
military planners working in Uganda with the Ugandan chief of 
defense forces and chief of general staff. We will do contract 
airlift for the Ugandan forces. We also have planners at the 
African Union working at headquarters on command-and-control 
systems. The Nigerians have also offered a battalion. The 
Burundians have offered a battalion of about a thousand troops, 
as well. And Malawi originally was reported to have offered 
them, but I think that they need to go through their 
parliamentary system, as well, to get the final approval.
    Other countries, like Rwanda, Tanzania, have offered to 
train the Transitional Federal Government's national army, and 
we are hoping that South Africa will provide some type of 
assistance. Algeria has also offered to provide airlift to 
AMISOM. And so, they're still in the process of finalizing the 
troop contributors and the way in which they will contribute, 
but we can provide planners. The Ghanaians have offered a few 
hundred troops, as well. They've asked us for planners to go to 
Ghana, to Accra, and to work with their military to prepare 
them for deployment. We would provide some equipment, contract 
airlift, some sustainment support.
    Senator Sununu. When do you expect deployment to take 
place? And at what numbers do you expect will be achieved?
    Dr. Frazer. Well, the first deployment that we're hoping 
for is of the Ugandan forces, and we're on standby waiting for 
their Parliament to decide. We can deploy them a day after 
their Parliament decides. We also know that they have teams 
right now in Mogadishu and in Addis, coordinating their 
planning within the AU structure. And so, we're ready to assist 
its--the timing, I'm hoping--I keep hoping, in the next week or 
two.
    Senator Sununu. And the total number that you hope to 
attain?
    Dr. Frazer. For that first deployment, we're talking 
about----
    Senator Sununu. But in the aggregate, including the other 
commitments that you've referenced.
    Dr. Frazer. The AU has said that they want a force of about 
8,000. They feel that they have commitments right now for 
actual forces----
    Senator Sununu. They think they can----
    Dr. Frazer [continuing]. Of about----
    Senator Sununu [continuing]. Reach that.
    Dr. Frazer [continuing]. 4,000.
    Senator Sununu. OK, thank you.
    Last question, Assistant Secretary Frazer, what should the 
status of Somaliland be? And what is the official interaction 
between the U.S. Government and the governing organizations in 
Somaliland?
    Dr. Frazer. I think we in the administration, agree with 
the sense of Congress that the status of Somaliland should be 
held off right now. We have always said that we will follow the 
lead of the African Union, and I think that the African Union 
also feels that now is not the time to push for decisions on 
Somaliland. They have been invited to be part of the National 
Reconciliation Conference that President Yusuf announced. I 
don't know whether they'll take up that offer. We meet with 
representatives of the Somaliland Government. They have a 
representative here. We have met with them. When I was at the 
African Union Summit, I met, on the margins of the African 
Union Summit, with the Foreign Minister of Somaliland, and have 
done so in my travels to the region in the past.
    Senator Sununu. Thank you.
    Senator Feingold. Thank you, Senator Sununu.
    I'm also very pleased to see Senator Cardin here, who is a 
new member of the subcommittee and the Senate, but obviously no 
stranger to these issues, as a long-time distinguished member 
of the House. Welcome.
    And normally we would rotate and go to Senator Cardin now, 
but, out of courtesy, he has deferred to Senator Coleman, who 
has been here for some time.
    Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman. And thank you, 
Senator Cardin.
    Let me first talk a little bit about the resources we have 
focused--are dealing with, with this issue. How many State 
Department folks do we have in Nairobi who are focused on 
Somalia, just Somalia? What kind of complement do we have 
there?
    Dr. Frazer. There are currently six people, full time, 
working on Somalia in Nairobi, including a Somalia coordinator, 
a senior Foreign Service officer, Ambassador John Yates. He is 
leading that Somali working group under the leadership of, 
obviously, our Ambassador Rannenberger, who I'm not including 
among the six.
    Senator Coleman. In addition, we've talked about the global 
nature of the war on terrorism and the concerns about Somalia 
and being a base for expanded terrorist activity. Is the Bureau 
of Near East Affairs--are they--how globally are we looking at 
dealing with this situation in Somalia?
    Dr. Frazer. Yes, they are involved, and we work closely 
with them. I sometimes feel that a lot of it is them suggesting 
that I travel to countries in their region, but certainly 
Assistant Secretary David Welch raises the Somalia issue, our 
Ambassadors in the region are constantly reporting, meeting 
with officials in their countries, and sending in those 
reports. We have reports in significant interaction with Yemen, 
but also from Egypt, Saudi Arabia, from the Arab League. We're 
engaging all of them.
    Senator Coleman. Senator Feingold, the chairman, talked 
about legislation that was introduced today, which myself and 
Senator Klobuchar cosponsors. One of the parts of that 
legislation talks about a special envoy to Somalia and lays out 
very specific duties: Direct U.S. Government efforts to 
establish a credible, capable government of national unity, 
provide detailed assessments of challenges and progress on the 
ground in Somalia and the Horn of Africa, to pursue a truly 
comprehensive and sustainable peace in Somalia. What is the 
administration's position in regard to the appointment of a 
special envoy to Somalia?
    Dr. Frazer. Well, as I said, we have Ambassador Yates as 
our Somalia coordinator. He took up his position, based in 
Nairobi, January 2007, and we would expect for him to play the 
role of the special envoy that--as outlined, to work in the 
region to develop that diplomatic engagement in the region 
itself.
    Senator Coleman. Does he have the authority--the recognized 
authority to do what a special envoy--does he have the leeway, 
the independence to be able to do what a special envoy would be 
called upon to do?
    Dr. Frazer. Well, in--yes, Senator, in the context of--the 
lead on our foreign policy is, as you very well know, Secretary 
Rice, and she's very much in the lead on our Somalia policy. 
She convenes her team, she has been part of this development of 
the strategy with the National Security Advisor within the 
context of the interagency. So, yes, indeed; like our other 
Ambassadors who have authority in their countries as chief of 
missions, he is empowered with helping us to develop that 
strategy and to implement the strategy.
    Senator Coleman. And my concern would not be necessarily 
from above, in terms of that, I just want to know that folks on 
the ground--I want to know that folks in the Embassy, folks in 
other areas, would recognize that he has, then, the ability to 
pull things together, to get information to help put in place a 
plan. That's my concern. Is it recognized that he's going to 
have those abilities that we would expect a special envoy to 
have?
    Dr. Frazer. Senator Coleman, yes, indeed. Ambassador 
Rannenberger is our chief of mission with responsibility in the 
region overall to coordinate our policy in the region, and he 
does so by convening conference calls with the regional 
Ambassadors, their chief of mission. Ambassador John Yates 
works very closely with Ambassador Rannenberger to help us 
implement that strategy. So yes, he has the authority, but line 
authority belongs, in the region, to our chiefs of mission, and 
we hold that and guard that very closely. And, obviously, in 
Washington, the Secretary of State leads our foreign policy.
    Senator Coleman. And I recognize that. I mean, my concern 
is that the bureaucracy recognize that we've got--that we're 
focusing resources or we're putting somebody in position to 
pull things together. It's tough working within a system if 
people don't recognize--that's my concern. We've talked about a 
special envoy rather than, I'd say respectfully, just a 
bureaucrat. I want somebody out there who's able to say, ``This 
is important, this is''--the--we--both witnesses talked about 
this window of opportunity. There's a window of opportunity 
now, but if we don't seize it, if we don't direct the 
resources, if we don't say that this is important, then I don't 
know if we'll seize that window of opportunity. So, that's 
really where I'm getting to in this line of questioning.
    Dr. Frazer. And I understand it, Senator. And I appreciate 
it. And I've said that I think that the Ambassador has all of 
the authority necessary to do that. But you're hearing me 
hesitate because I don't understand why we would want to take--
or suggest that the Secretary of State, who is actively 
engaging and involved on a daily basis on Somalia, and is a 
senior diplomat for our Government--why we would suggest that 
she not stay in that lead role. Why would we devolve, in some 
ways, the authority away from the line responsibility for it, 
if it's being carried out. If it's not being carried out, a 
special envoy, I think, can help to manage, but when the line 
authorities are managing the policy, I'm left puzzled, frankly, 
by the desire to put another person into that line command.
    Senator Coleman. Well, in part, because the Secretary--
we'll talk about the Secretary of State, because the Secretary 
of State is involved in trying to get support in the region for 
our efforts in Iraq. The Secretary of State is involved with 
trying to deal with the situation of the--preventing the 
rearmament of Hezbollah in Lebanon. The Secretary of State is 
involved with the very delicate negotiations dealing in six-
party talks with North Korea, because the Secretary of State--
and I could go on and on--in Venezuela, the Secretary of State, 
in the Sudan, in Darfur. And so, my concern----
    Dr. Frazer. Somalia.
    Senator Coleman [continuing]. Is--and Somalia--and that's 
my concern, that there are all these critical areas and issues 
that we face today. And I just want to make sure that we are 
putting the focus, the attention, and the resources with the 
kind of independence that allow people to do what has to be 
done, knowing that the Secretary of State's attention is going 
to be diverted by a whole range of other critical issues. This 
is also important. And I don't want to minimize that importance 
when--and recognizing that there are other things going on the 
world today that are going to take her attention and her focus.
    Dr. Frazer. The Secretary of State has prioritized Somalia 
on her range of issues that she's dealing with. Anytime we need 
to go to see the Secretary of State, she leads our policy on 
Somalia, she's one who decided to give us the $40 million in 
January, when we went to the International Contact Group. She's 
the one who blessed and decided on the regional strategy.
    Senator Coleman. OK.
    Dr. Frazer. So, it's a priority for her.
    Senator Coleman. And I appreciate that.
    Mr. Hess, I'd like to look a little bit at the resources. I 
think in the President's budget request talked about--was it--
$9 million was the figure for development assistance for 
Somalia in 2008. Does this represent all the assistance that 
we're providing Somalia to accomplish all the objectives that 
you mentioned?
    Mr. Hess. No, sir. We have a--we have more money than that. 
As you know, in the supplemental there was an increase of $20 
million that was asked for. We have additional food aid 
resources that will be available as needed. We have 41,000 
metric tons on the ground right now. We did a call forward for 
another 18,500 tons in January. So, the pipeline's in good 
shape there. But we have funds available if we need more food 
resources. We're looking at nonfood items, particularly on the 
water sanitation side, rehabilitation of wells. We have asked 
our partners to look particularly at those areas, and also on 
education.
    Senator Coleman. Do we have a figure as to what your--what 
the total costs will be? What do we need to make a difference 
in Somalia, understanding that we have a whole range of 
humanitarian crisis--in flooding, malnutrition, et cetera, et 
cetera?
    Mr. Hess. It's hard to estimate exactly what that number is 
right now, but we're looking at anywhere from $20 to $60 
million. But we need our partners on the ground to come back to 
us after they've done a thorough assessment, because you don't 
want to attach a number to that right now without an accurate 
assessment. We need to look primarily at the damage that was 
done by the flooding on the wells that we had dug during the 
drought last year.
    Senator Coleman. Are you satisfied with the level of 
international cooperation that we're getting to deal with the 
situation in Somalia?
    Mr. Hess. Yes, sir. I've met with the donors when we were 
out there. That's a very good question. I met with all the 
donors. They're very seized with the issue. ECHO and the 
European Union have done a very good job of coordinating the 
effort. DFID, our U.K. partners, are very much engaged in the 
area, and they meet on a weekly basis to ensure--because what 
we're talking about here are gaps and where the gaps exist, and 
we want to make sure that those gaps are covered, and we work 
very closely with them to ensure that we don't have those gaps. 
And that's also the role of that U.N. Team, OCHA, U.N. Office 
of Coordination for Humanitarian Assistance, has done a very 
good job on the coordination role. They've got a good team 
player out there, and he's doing a great job, as well.
    Senator Coleman. Thank you.
    Thank you, Mr. Chairman. And thank you, Senator Cardin.
    Senator Feingold. Let me turn to Senator Cardin, but, just 
before I do, I want to thank Senator Coleman for the remarks he 
just made in the context of special envoy. I know the Secretary 
indicated she's puzzled by our request for a special envoy, but 
I'm puzzled that you would be puzzled. I mean, let's face it, 
in Sudan we had a special envoy, in John Danforth, to try to 
resolve the dispute between the north and the south. We 
currently have a special envoy with regard to Darfur, 
Ambassador Natsios. And presumably Secretary Rice is engaged in 
those matters. I know she is, I know she cares about them. It's 
just a question of: How much can one person do with such an 
incredible range problems, which Senator Coleman just 
identified, post-9/11? It's essentially impossible.
    So, you know, I'm loathe to just call for a bunch of 
special envoys, but we're in a very unusual situation. 
Ambassador Rannenberger, an excellent Ambassador who I had a 
chance to work with in Kenya, is obviously doing Somalia part-
time, because Kenya is a very important country, and it 
requires an enormous amount of his attention. John Yates is a 
retired temporary appointment. So, this is about authorities, 
in part, you're correct about that, but it's also about 
capacity. Just how much can people do, given the resources? I 
mean, we had Newt Gingrich, of all people, come before the 
Senate Foreign Relations Committee and say that it had been a 
mistake to cut back on our State Department people, and he 
advocated a significant increase in State Department staff. I 
mean, this is the symbol of the Contract with America admitting 
that he was wrong to do that. So, we are in a different era. 
And it is not necessarily an attack on your authority or 
Secretary Rice's authority to say, in this particular 
situation, it may be necessary to have a special envoy. I hope 
we can continue the discussion of this special envoy issue in 
that context and in that spirit.
    Senator Cardin.
    Senator Cardin. Well, thank you very much, Mr. Chairman. 
And let me concur in your comments. Somalia is very important 
to U.S. interests and I think a special envoy is appropriate, 
and certainly we need the resources if we're going to be able 
to be effective.
    Administrator Hess, thank you for being here. Secretary 
Frazer, appreciate both of your testimonies.
    As I understand your testimony, Secretary Frazer, the 
mission--or our priorities in Somalia, I think, are without 
dispute: To encourage political dialog between leadership with 
the stakeholders; to mobilize international support to build 
the governance capacity clearly for credibility, and we need 
the international community working with us; and deployment of 
an African stabilization force in order to deal with the 
humanitarian circumstances. I think all that is--are goals that 
we agree with.
    I want to concentrate, if I might, on the issue of 
terrorism within Somalia and the mission--the air strikes that 
the United States participated in, beginning of January. Can 
you just give us the status of those air strikes--the targets 
and how successful we were?
    Dr. Frazer. Yes, Senator; I can try my very best. There 
were two A-130 air strikes, as you said. They were targeting 
convoys. They were in a remote area in Somalia, near the 
border, between Somalia and Kenya. We don't have full 
information on the results at this point. I think that probably 
my colleagues from DOD might be able to help, but I think that 
there's also an issue of the fog of war, and we need greater 
clarity. We're fairly certain that some of the terrorists that 
were targeted have been captured or killed, but I think that 
probably time will tell and we'll be better able to know 
exactly who has been killed in those attacks and who has 
escaped.
    Senator Cardin. Well, I'm certainly interested in that, and 
perhaps we'll follow up with DOD. I'm also interested what 
impact it has on the other goals. It's been reported that the 
Europeans were not very pleased with these air strikes. Maybe 
you could give us a little more information about how the 
stakeholders have responded to American air strikes.
    Dr. Frazer. Senator, the key stakeholders that we've been 
focusing our strategy on are the Africans themselves, 
particularly those in the region who have some leverage and 
whose interests are most threatened by these terrorists who are 
operating in Somalia. We've worked very closely, as I said, 
with Ethiopia, Kenya, and Djibouti. We've shared intelligence 
with them to try to track these terrorists. We will continue to 
work with them.
    I think that everyone wants to work in coordination and 
cooperation, and so, we have to maximize that, but I think that 
we have a shared goal to try to track these guys and our 
cooperation with the key partners, being those neighbor--the 
countries in the neighborhood, has not been undermined by the 
strikes, the two air strikes.
    Senator Cardin. Well, I certainly agree with us doing what 
is necessary against terrorism. My question is a little 
broader, as to what impact that's having on our overall 
strategies in Somalia as it relates to our diplomatic efforts.
    Dr. Frazer. Our diplomatic efforts continue strong. The 
International Contact Group on Somalia is a focal point for our 
diplomatic multilateral efforts. We continue to have key 
institutions and member countries--key institutions being the 
African Union, the United Nations, the European Union, the Arab 
League, the Intergovernmental Authority on Development--that 
are involved, as well as key countries, like Norway, the United 
States, Tanzania, and others. There has been no diminishing of 
that multilateral effort. In fact, more countries have asked to 
join the International Contact Group on Somalia.
    Senator Cardin. But do you anticipate that additional air 
strikes will be necessary?
    Dr. Frazer. That's really an operational question, sir. It 
is clearly tracking these terrorists who continue to threaten 
American lives, the Somalis themselves, and their neighbors, is 
a key priority for the United States, but that is really an 
operational question of the combatant commanders in the field.
    Senator Cardin. I'm trying to get from you, but I'm not 
succeeding, as to whether this is having any significant impact 
in our discussions with our international partners on the goals 
that you have articulated in Somalia.
    Dr. Frazer. Clearly, the issue of what actions the United 
States takes, in terms of tracking these terrorists, all of our 
actions--sharing information, air strikes, putting forces on 
the ground, if we should do that--are part of the dialog that 
we have, especially with Kenya, Ethiopia, Djibouti, Uganda, our 
regional partners but also more broadly. But our focus on the 
diplomatic effort is to ensure that whatever we do is 
coordinated with those key countries around Somalia that have 
the greatest leverage over it. Secondary is working and making 
sure that we remain coordinated with countries throughout 
Africa. We do that most effectively through the African Union 
(AU). I had dialog with Chairman Konare at the AU. It was good 
dialog. I think we're still latched up. And then, from there, 
obviously the international partners, working with the European 
Union and especially with Norway, who cochairs the 
International Contact Group on Somalia. So, what I'm saying----
    Senator Cardin. It would seem to me, though, that it--that 
part of the diplomatic effort is to work with our European 
friends and have a greater understanding on the use of our air 
support to deal with terrorism. Was that done?
    Dr. Frazer. Frankly, this just wasn't--in my interaction 
with the Europeans--an issue high on the agenda. It came up in 
one of my conversations with one European country. All of the 
others were focused on the question of conditioning aid 
specifically to the AMISOM force and its deployment, whether 
the EU position, that until the TFG did more on dialog, would 
hold up funding for AMISOM. That was really the focus of 
attention and the major diplomatic issue that we were 
addressing on Somalia at the African Union Summit, in which I 
had consultations broadly with the European countries. Maybe 
it'll come up at the International Contact Group on Somalia, 
which will meet on February 9. It didn't come up at the last 
one, because, in December--or January, when we had that 
meeting, the air strikes took place after the meeting was over.
    Senator Cardin. It just seems to me, Mr. Chairman, that we 
would be in a stronger position in carrying out the goals that 
are--Madam Secretary, you have announced--if there was a 
broader involvement in decisions made in regards to the 
terrorist activities in Somalia and what we need to do in order 
bring that under control.
    I thank the chairman for the time.
    Senator Feingold. Thank you very much, Senator Cardin, for 
your participation.
    And we do need to get to the next panel soon, but I do want 
to take a little more time to ask some questions, Secretary 
Frazer. And thank you for your patience here.
    Thinking more broadly, can you explain how the U.S. 
Government is working to eliminate the conditions that have 
allowed the terrorists to use Somalia as a safe haven for so 
long? We--as you've indicated, we've known that al-Qaeda 
affiliated individuals have been in Somalia for years. So, what 
are we doing differently now?
    Dr. Frazer. Well, what we're trying to do is, as I said, of 
course, working very closely with the region to share 
information about the movement of these terrorists. We're not 
going to completely eliminate terrorists in Africa--in the Horn 
of Africa, or anywhere else around the globe, unless we work in 
close partnership with countries themselves--strong, capable 
countries that can monitor their own borders. We will continue 
to work with the United Nations, and we're doing so in the 
Security Council, to try to track terrorist financing. We also 
very much work in partnership with the neighboring countries. 
Obviously, also building a capable, inclusive government in 
Somalia will be a large part of trying to prevent terrorists 
from maintaining safe haven there. And I think that we saw that 
most dramatically with the CIC and how the Somali people 
withdrew their support from the CIC helped it to collapse. And 
so, building those strong governance institutions on an 
inclusive basis, I think, is part of a longer term strategy, 
and even a medium-term strategy, of preventing terrorists from 
taking hold in Somalia.
    Senator Feingold. And then, what is the state of play with 
the Islamic Courts right now? Do they actually pose any 
security risk to the TFG? Are you confident that the TFG, with 
international support, will be able to change the very 
conditions that led to the rise of the warlords and then the 
Islamic Courts in the first place?
    Dr. Frazer. I think the situation is still very dynamic. 
We're clearly working to try to make sure that they don't. I've 
heard, in my consultations, two different analyses of the 
continued insecurity in Somalia. One is that it's coming from 
certain sub-sub clans that feel that they are not sufficiently 
part of inclusive dialog. Then they're making--they're 
attacking to indicate, ``Bring us in.'' Second, I've heard 
that--analysis that it's remnants of the Council of Islamic 
Courts; as the leadership withdrew, they left behind certain 
fighters, they handed out weapons, and it may be those remnants 
that are trying to start an insurgency and reconnect with the 
reconstituted leadership of the CIC.
    Senator Feingold. Well, and this relates to one of the 
really tough questions, which is--obviously, we want this TFG 
to be as inclusive as possible for it to work, but are there 
any specific red lines or specific groups or individuals that 
should not be part of the process? And how do you determine 
that?
    Dr. Frazer. We've stated very broadly that those who 
renounce violence and terrorism should be part of the process. 
The Transitional Federal Government has drawn the lines a bit 
more narrowly. They have said that those who have invited 
terrorists into their country should not be part of an 
inclusive dialog.
    Senator Feingold. But we do not share that narrow view, 
apparently.
    Dr. Frazer. Well, it's a sovereign country; and so, we work 
with them, and we advise and consult, but they have to make the 
decisions for their own government, and how they're going to 
govern. But our statement has been fairly broad, which is that 
those who renounce violence and extremism should be eligible to 
be part of the process. Having said that, I must say that many 
of our partners have advised us to be careful, and that people 
say things, but intend to do something very different. And so, 
we're trying not to micromanage the process of inclusiveness, 
but to state broadly what is necessary for that longer term 
stability.
    Senator Feingold. Well, I can see this is one of the 
hardest questions here and in other places. I mean, who can we 
actually deal with? Who is irreparably an enemy of the United 
States? And who is sort of in between? This is one of the 
toughest parts of this job, and I recognize that.
    A couple of quick questions on the African Union 
stabilization force. We're all optimistic and hopeful about the 
deployment of the AU-led stabilization force, but let me ask 
you to be as frank as you can. Is this force going to be 
deployed in a timely manner? And, more specifically, as you in 
the international community plan to support this deployment, 
what are the major challenges and shortfalls and gaps that have 
to be considered?
    Dr. Frazer. Well, I think that we're hopeful that it will 
be in a timely manner. Frankly, I think we're a little bit 
behind the timetable that we, the U.S. Government, had hoped 
for. We had hoped that that deployment would take place in 
early January, but other governments have to go through their 
own national process.
    We expect that the AMISOM force will eventually transition 
into a U.N. operation and that, say, within 6 months, that 
transition could occur--that UNDPKO would be prepared to take 
over, to sustain this force over time, and to build it. And so, 
the AU force would be an immediate insertion into Mogadishu to 
prevent that security vacuum from occurring as the Ethiopians 
withdraw, but that it would then get the broader international 
support of the U.N. Security Council, and they're working on a 
resolution to that effect now.
    Senator Feingold. Have any of the nations that have pledged 
forces suggested that they'll only be involved for a certain 
period of time?
    Dr. Frazer. No.
    Senator Feingold. Well, thank you both for your patience.
    We'll now move to the second panel.
    [Pause.]
    Senator Feingold. All right, let us begin with the second 
panel.
    Dr. Shinn, would you begin, please?

      STATEMENT OF HON. DAVID SHINN, ADJUNCT PROFESSOR OF 
     INTERNATIONAL AFFAIRS, GEORGE WASHINGTON UNIVERSITY, 
                         WASHINGTON, DC

    Ambassador Shinn. Thank you very much, Chairman Feingold, 
for inviting me again to speak to this committee about Somalia.
    And if I may submit a longer statement for the record, I 
would----
    Senator Feingold. Without objection.
    Ambassador Shinn. OK.
    I want to look briefly at the issue of the neighbors of 
Somalia. There are three now, if you include Somaliland, which 
declared its independence unilaterally from Somalia in 1991. 
Fortunately, the TFG wisely has avoided a confrontation with 
the authorities in Hargeisa as it tries to consolidate power in 
the former Italian Somalia. The other two neighbors with very 
long borders are Kenya and Ethiopia, and there's a longstanding 
problem here involving irredentist claims by Somalia concerning 
the resident Somali populations in Ethiopia and Kenya, which, 
in the case of Ethiopia, includes about one-quarter of its land 
area. Unfortunately, this issue was revived during the period 
of the Islamic Courts, when at least one senior member of the 
Islamic Courts, Hassan Dahir Aweys, who was chairman of the 
Shura of the Somali Council of Islamic Courts, on more than one 
occasion claimed Ethiopia's Ogaden as part of Somalia, although 
others in the Courts did not subscribe to this view.
    Ethiopia appears, almost from the beginning of its recent 
military operation, to have planned a brief campaign--one, 
because of the high cost of the operation; and, two, I think 
the fact that even Ethiopia understood that a continuing 
presence in Somalia would incite Somalia nationalism against 
Ethiopia and lead to further problems.
    The dilemma today for the Transitional Federal Government, 
as we have already heard this morning, is that the early 
departure of the Ethiopians leaves a potential power vacuum in 
Somalia. The TFG has not yet shown a capacity to maintain 
control on its own in the country. And although there have been 
numerous press reports about various warlords and others 
turning over their arms and weapons to the TFG, frankly I would 
take those with a grain of salt. Somalia remains awash in small 
weapons. And even though there may be some control over the 
larger weapons, you can be assured that there are plenty of 
handcarried weapons to go around for years to come, and they're 
not going to be turned over to any authority.
    Ethiopia clearly prefers to have a moderate, friendly 
national government in Mogadishu. On the other hand, I think 
Ethiopia could live with a return to numerous fiefdoms ruled by 
individual warlords if that were the other option. Obviously, 
they do not want a return to extremist rule coming from any 
element of the Islamic Courts.
    As the Islamic Courts gained power last year, Kenya joined 
Ethiopia in strong support of the TFG, but Kenya has now more 
recently turned to a more neutral role on this question. Kenya 
remains the chair of the Intergovernmental Authority on 
Development, IGAD. During the past year, IGAD members have been 
deeply divided on the best way to deal with Somalia. Ethiopia, 
Kenya, and Uganda strongly supported the TFG. Eritrea strongly 
supported the Islamic Courts. Djibouti began 2006 as a 
supporter of the TFG, but shifted its sympathy to the Islamic 
Courts after they took control of Mogadishu. Sudan almost 
certainly sympathized with the Islamic Courts. Because of these 
past and continuing divisions in IGAD over Somalia, there's 
little prospect the organization can play a leading role in 
resolving the ongoing differences over the short term. Over the 
medium/longer term, perhaps IGAD can return to a useful role.
    Looking at the wider region beyond IGAD, Yemen has 
legitimate interests in Somalia, because a large number of 
Somali boat people continue to make their way to Yemeni shores. 
Egypt has longstanding historical interests along the Somali 
coast, and is always concerned about developments involving 
Ethiopia, which is the source of 86 percent of the Nile water 
which reaches the Aswan dam.
    Dubai and the UAE serve as the financial center for both 
Somalia and Somaliland. There's been a history of money from 
Saudi sources and government-supported Islamic charities 
finding its way to both legitimate and illegitimate Islamic 
causes in Somalia. And then you have Libya and Iran that just 
seem to meddle because it's an opportunity.
    Looking at the African Union and the Arab League, the 
primary role of the African Union has been to deploy an African 
Union mission in Somalia, AMISOM, which has been referred to 
this morning, for a period of 6 months. The AU envisages that 
AMISOM will consist of nine infantry battalions of 850 
personnel each, supported by maritime, coastal, and air 
components, appropriate civilian personnel, and a police 
training team. This mission is expected to evolve into a U.N. 
operation, after 6 months, that will support the long-term 
stabilization of post-conflict reconstruction in Somalia. Most 
of the contributing countries seem to have attached conditions, 
such as approval only after ratification of its legislative 
body. So far, I'm not aware that any country's legislative body 
has approved participation.
    Estimates suggest that AMISOM will cost $34 million each 
month. The United States has promised $14 million to support 
the force and the airlift of African troops to Somalia. As we 
heard this morning from Assistant Secretary Frazer, the United 
States is prepared to pledge another $40 million for this 
purpose. The European Union has already released 15 million 
euros, or about $20 million, for the same purpose.
    There is still no date for the arrival of the first troops, 
and it is apparent most potential African troop-contributing 
countries are concerned about the situation on the ground and 
whether they will be entering a friendly or a hostile 
environment. The Arab League had an opportunity to make a real 
contribution to the establishment of peace in Somalia, which is 
an Arab League member, but, with the defeat of the Islamic 
Courts, the Arab League seems to have largely abdicated 
responsibility for Somalia.
    Let me just conclude with a couple of comments about the 
United Nations and the international community.
    U.N. Resolution 1725 on Somalia, adopted by the Security 
Council on 6 December 2006, has been largely overtaken by 
events as a result of the Ethiopian and Transitional Federal 
Government military victory. The 19 January 2007 AU communique 
has effectively replaced the U.N. resolution. The U.N. Security 
Council, on February 2, urged the AU to send peacekeepers to 
Somalia quickly so that Ethiopia could withdraw its forces. The 
enormous amount of energy being devoted by the African Union 
and the international community to the raising of a 
peacekeeping force for Somalia would be better spent in 
convincing, maybe demanding, that the TFG and other parties 
begin, immediately, a serious process that leads to power-
sharing. This should be the highest priority of the 
international community, including the United Nations, African 
Union, Arab League, European Union, and United States. If 
meaningful talks--and I underscore ``meaningful''--get underway 
soon, it will reduce the likelihood of conflict or violence and 
increase the possibility that African troops can enter the 
country peacefully.
    Yesterday, there was a beginning of a precursor effort to 
move forward with this reconciliation conference in Mogadishu. 
It's not clear who attended, but it does appear as though the 
moderate elements of the Islamic Courts were not invited.
    The outcome of this reconciliation effort may well result 
in a restructuring of the Somali Parliament and Ministries, 
which are far too numerous, somewhere in the vicinity of 50, 
and will certainly involve power-sharing with some elements of 
Somali society that are poorly represented in the TFG. The 
alternative will be a phantom peacekeeping force that arrives 
too late to achieve any real purpose in Somalia. In any event, 
the TFG probably envisages AMISOM as tantamount to a praetorian 
guard to keep it in power. The TFG must prove to the Somali 
people that it is prepared to win their respect and support. 
Only then will there be a meaningful role for AMISOM, and only 
then will the TFG be in a position to create a national 
government that has long-term prospects for survival. The 
beginning of a meaningful reconciliation process should serve 
as the signal to the international community to increase 
substantially its humanitarian and development assistance to 
Somalia.
    Thank you, Mr. Chairman.
    [The prepared statement of Ambassador Shinn follows:]

 Prepared Statement of Hon. David H. Shinn, Former U.S. Ambassador to 
    Ethiopia and State Department Coordinator for Somalia; Adjunct 
 Professor, Elliott School of International Affairs, George Washington 
                       University, Washington, DC

    I thank the subcommittee and Chairman Feingold for inviting me to 
participate in this hearing. This is the third occasion in 5 years that 
I have had the opportunity to present my views on Somalia before the 
subcommittee. On this occasion, I have been asked to discuss the 
current diplomatic state of play with a focus on both regional and 
international players.
                        the immediate neighbors
    Somaliland was previously known as British Somaliland and from 1960 
until it unilaterally declared its independence in 1991 the 
northwestern region of the Somali Republic. That part of Somalia now 
controlled by the Transitional Federal Government (TFG) has since 1991 
had three neighbors--Ethiopia, Kenya, and Somaliland--and a long Indian 
Ocean coastline. The TFG claims Somaliland, which has not been 
recognized by any state, but has wisely avoided a confrontation with 
the authorities in Hargeisa as it tries to consolidate its power in the 
former Italian Somalia. Once there is a national government in 
Mogadishu that is widely accepted and clearly in control of the country 
there inevitably will be discussions between Mogadishu and Hargeisa on 
the future of their relationship. In the meantime, it is advisable for 
the TFG to focus on more immediate challenges and leave the question of 
Somaliland, which is doing just fine on its own, for another day.
    Somalia's two other neighbors are Kenya and Ethiopia. It was the 
policy of the Somali Republic beginning in 1960 to encourage the 
incorporation into Somalia of those parts of Kenya and Ethiopia 
inhabited by the Somali people. In the case of Ethiopia, this included 
about one-fourth of its land area in southeastern Ethiopia known as the 
Ogaden and Haud that borders Somalia and Somaliland. It also included 
the Northeastern Frontier District in Kenya that borders southern 
Somalia. These irredentist claims led to war on several occasions 
between Somalia and Ethiopia and considerable conflict along the Kenya-
Somalia border. Following the collapse of the Siad Barre regime in 
Somalia in 1991 and the absence of an effective national Somali 
Government, Somali calls for incorporation of this land ended.
    Extremist elements in the Islamic Courts that seized power in 
Mogadishu last summer and then consolidated control throughout about 50 
percent of the former Somali Republic revived the irredentist policy. 
Hassan Dahir Aweis, Chairman of the Shura of the Somali Council of 
Islamic Courts, on more than one occasion claimed Ethiopia's Ogaden as 
part of Somalia. Others in the Islamic Courts did not subscribe to 
these views by Aweis. His public statements on Somali-inhabited parts 
of Kenya were more ambiguous, but left the impression this territory 
should also become part of Somalia. Combined with a call by the Islamic 
Courts for jihad against Ethiopia, which had sent military personnel 
into Somalia in support of the TFG based in Baidoa, Ethiopia became 
increasingly concerned about the situation in Somalia. No one in the 
TFG has publicly suggested that Somali-inhabited land in Ethiopia be 
turned over to Somalia.
    Following attacks by the Islamic Courts militia against the TFG and 
Ethiopian forces in the vicinity of Baidoa, the TFG requested and 
Ethiopia agreed to send significant numbers of troops into Somalia to 
defeat the Islamic Court militias. We all know the outcome of the 
Ethiopian intervention. Ethiopia appears from the beginning to have 
planned a brief campaign because of the high cost of the operation and 
the fact that a long Ethiopian presence in Somalia would further incite 
Somali nationalism against Ethiopia. I believe both of these reasons 
explain Ethiopia's desire to remove its forces quickly from Somalia or, 
at a minimum, pull them back to the Ethiopian-Somali border area.
    The dilemma today for the TFG and the Ethiopians is the possibility 
of a power vacuum, especially in Mogadishu, if the Ethiopian troops 
leave too soon. The TFG has not yet shown it has the capacity to 
maintain control of the capital on its own. There is a continuing or 
potential threat from the remnants of Islamic Court militias, Somali 
warlords with personal agendas, and ordinary-armed Somalis who have for 
years survived as hired guns or used their weapons to loot for personal 
gain. I would take with a grain of salt the numerous reports that 
warlords and others have turned in their weapons to the TFG or joined 
the TFG. Somalia remains awash in hand-carried weapons even if some 
control has been obtained over the larger pieces of military equipment.
    Ethiopia is no doubt weighing carefully requests from the TFG that 
it remains in Somalia until the arrival of an African Union ``peace 
support'' mission. (Actually this is a euphemism for a Chapter Seven 
peacekeeping mission.) For the reasons already noted, Ethiopia is not 
likely to be very sympathetic to these requests. In fact, Ethiopia 
probably believes that it has accomplished what it set out to do--the 
removal from power of the Islamic Courts and especially the destruction 
or scattering of armed extremists among them. Although Ethiopia clearly 
prefers to have a moderate, friendly, national government in power in 
Mogadishu, it can, if necessary, live with a return to numerous 
fiefdoms ruled by individual warlords. Ethiopia has an especially close 
relationship with TFG Prime Minister Ali Mohammed Ghedi.
    Kenya has traditionally tried to play a neutral role in the Somali 
conflict and for years was the designated member of the 
Intergovernmental Authority on Development (IGAD) to mediate the 
dispute. As the Islamic Courts gained power last year, Kenya joined 
Ethiopia in support of the TFG but made clear that it would not send 
Kenyan troops into Somalia. As Ethiopia became more involved militarily 
in Somalia, Kenya began to return to its more neutral role. After the 
military defeat of the courts, President Mwai Kibaki was one of the 
leaders, however, in efforts to identify troop contributors for an 
African peacekeeping force.
    Because of the swiftness of the Ethiopian and TFG military victory 
over the Islamic Courts, the number of Somali refugees that might 
normally head toward Kenya has been mercifully small. Unless the 
security situation deteriorates significantly or there is a return to 
severe drought and/or floods, Kenya may escape a humanitarian disaster 
inside and along its border with Somalia. Kenya will do what it can 
quietly to support the TFG. It does not want to see a return to power 
of extremist elements of the Islamic Courts. In order to minimize 
refugee movements into Kenya, it prefers the creation of a moderate, 
Somali Government that exercises firm control over the entire country.
             the intergovernmental authority on development
    In addition to Ethiopia, Kenya, and Somalia, members of IGAD 
include Uganda, Eritrea, Djibouti, and Sudan. During the past year, 
IGAD members have been deeply divided on the best way to deal with 
Somalia. Ethiopia, Kenya, and Uganda strongly supported the TFG. 
Ethiopia and Uganda continue their support while Kenya seeks to be an 
honest broker.
    Eritrea strongly supported the Islamic Courts, primarily because 
the courts posed the biggest threat to Eritrea's enemy, Ethiopia. In 
fact, Eritrea sent an undetermined number of military personnel to 
train and support members of the Islamic Court militias. The U.N. 
Monitoring Group on Somalia placed the number of Eritrean military 
personnel in Somalia last fall at 2,000. This figure appears to be 
exaggerated; a couple of hundred is probably closer to the actual 
figure. Eritrea also provided substantial quantities of military 
equipment to the courts. Even today, there are unconfirmed reports that 
Eritrea continues to support remnants of the Islamic Court militias.
    Djibouti, an overwhelmingly Muslim country, began 2006 as a 
supporter of the TFG but shifted its sympathy to the Islamic Courts 
after they took control of Mogadishu. It received a number of 
emissaries from the courts and urged the courts and the TFG to resolve 
their differences in a process chaired by Sudan as current chair of the 
Arab League. Djibouti seems now to be reassessing the Somali situation 
but should have no difficulty supporting the TFG if it can establish 
security throughout the country.
    Sudan played its Somali cards close, in part because it was the 
designated mediator between the TFG and the Islamic Courts. Khartoum 
presided over one promising meeting last June when the courts and the 
TFG agreed to recognize each other, cease military operations, and meet 
again to negotiate a power-sharing arrangement. That was the end of 
progress in the Khartoum process. Sudan almost certainly sympathized 
with the Islamic Courts and made clear that it was not prepared to 
contribute troops to an African Union peacekeeping force in Somalia.
    Because of these past and continuing divisions in IGAD over 
Somalia, there is little prospect the organization can play a leading 
role in resolving ongoing differences over the short term. If the 
situation clarifies in Somalia, there will be a tendency for IGAD 
members to mitigate their internal differences. This may allow IGAD to 
reengage usefully in the issue.
                            the wider region
    There were numerous reports last year that a variety of countries 
in the wider region were supporting one side, usually the Islamic 
Courts, or the other in Somalia. If they did not actually take sides, 
they showed unusual interest in a problem that, except for Yemen, was 
far from their borders. In addition to Yemen, engaged countries 
included Libya, Egypt, Iran, Saudi Arabia, Qatar, and the United Arab 
Emirates (UAE).
    Yemen has legitimate interests in Somalia because of the large 
number of Somali boat people who make their way to Yemen's shores. 
Potentially, Yemen is in a position to help bring competing Somali 
groups together. Egypt has longstanding historical interests along the 
Somali coast and is always concerned about developments involving 
Ethiopia, which is the source of 86 percent of the Nile water reaching 
the Aswan Dam. Dubai in the UAE serves as the financial center for both 
Somalia and Somaliland. Before the defeat of the courts, Qatar may have 
been trying to play a mediating role. There has been a history of money 
from Saudi private sources and government-supported Islamic charities 
finding its way to both legitimate and illegitimate Islamic causes in 
Somalia. Libya and Iran just seemed to be meddling because Somalia 
offered an opportunity.
    With the defeat of the Islamic Courts, most of these countries with 
the notable exception of Yemen and the UAE, which continues to serve as 
a Somali financial center, have shown less engagement in Somali 
affairs. The involvement last year of all these countries illustrates, 
however, the potential to return to Somali affairs quickly if they find 
it in their interest or just want to meddle.
                 the african union and the arab league
    The primary role of the African Union (AU) has been an effort to 
deploy an African Union Mission in Somalia (AMISOM) for a period of 6 
months. A 19 January 2007 communique of the AU Peace and Security 
Council reiterated the AU's commitment to the unity, sovereignty and 
the territorial integrity of Somalia. It called for an all-inclusive 
and genuine process of dialog and reconciliation. The African Union 
envisages that AMISOM will consist of nine infantry battalions of 850 
personnel each supported by maritime coastal and air components, 
appropriate civilian personnel, and a police training team. This 
mission is expected to evolve into a U.N. operation after 6 months that 
will support the long-term stabilization of post-conflict 
reconstruction in Somalia. The model for the operation is the AU 
mission in Burundi. The African Union urged the U.N. Security Council 
to consider authorizing a U.N. operation in Somalia that would take 
over from AMISOM at the expiration of its 6-months mandate. The United 
Nations seems inclined to oblige.
    Each day there are new press accounts about African countries that 
have committed, are considering or rejected the contribution of troops 
for the standing up of AMISOM. Most of the contributing countries seem 
to have attached conditions such as approval only after ratification by 
its legislative body. Malawi's Defense Minister reportedly promised 
troops only to have the President rescind the announcement. It is not 
clear at this writing which countries are irrevocably providing troops 
for AMISOM, although contingents from Uganda and Nigeria seem the most 
promising. Estimates suggest AMISOM will cost $34 million each month. 
The United States has promised $14 million to support the force and the 
airlift of African troops to Somalia. It is not clear if the cost of 
airlifting troops will come out of the $14 million. The European Union 
has released 15 million euros to finance the peacekeeping operation.
    There is still no date for the arrival of the first troops and it 
is apparent most potential African troop-contributing countries are 
concerned about the situation on the ground and whether they will be 
entering a friendly or hostile environment. The bad experience of the 
much larger and better equipped U.S.-led United Task Force (UNITAF) in 
1992-1993 and the U.N. Operation in Somalia (UNOSOM II), which took 
over from UNITAF and remained until 1995, has not been lost on African 
troop contributors. It is not realistic to expect there will be a fully 
equipped and staffed AMISOM on the ground anytime soon. The African 
Union deserves considerable credit for what it is trying to accomplish 
in Somalia, but it must also face reality.
    The Arab League had an opportunity to make a real contribution to 
the establishment of peace in Somalia, an Arab League member. Under the 
chairmanship of Sudan, the Arab League started well with the June 2006 
agreement in Khartoum between the Islamic Courts and the TFG. But as 
the courts gained power and extended their authority in Somalia, the 
Arab League seemed to lose interest in the reconciliation process. If 
the Arab League had pressed the Islamic Courts harder to engage in 
meaningful dialog with the weak TFG, it might have been possible to 
avoid a war and to create a government of national unity that included 
both the TFG and the courts. Admittedly, this would have left open the 
possibility of extremists, some of whom have ties to internationalism 
terrorism, remaining in positions of authority. There is obviously no 
room for extremists or supporters of terrorism in a Somali Government. 
Close collaboration between the TFG and the moderates in the Islamic 
Courts might have been able, however, to solve this dilemma. With the 
defeat of the Islamic Courts, the Arab League seems to have abdicated 
responsibility for Somalia.
           the united nations and the international community
    U.N. Resolution 1725 on Somalia adopted by the Security Council on 
6 December 2006 has been largely overtaken by events as a result of the 
Ethiopian and TFG military victory. The resolution urged dialog between 
the TFG and the Islamic Courts and authorized IGAD and the AU to 
establish a protection and training mission in Somalia known as IGASOM. 
The 19 January 2007 AU communique has effectively replaced the U.N. 
resolution. The African Union, the United Nations, and the 
international community are now supporting the establishment of AMISOM, 
which has replaced IGASOM. Presumably the U.N. Security Council will 
propose a new resolution on Somalia that takes account of the very 
different situation on the ground and the more recent AU communique. 
The U.N. Security Council on 2 February 2007 urged the AU to send 
peacekeepers to Somalia quickly so that Ethiopia could withdraw its 
forces. It also supported the deployment of a U.N. technical assistance 
mission to Somalia to make recommendations on security needs.
    The non-African parties most engaged in efforts to find a solution 
to the situation in Somalia have been the European Union and the United 
States. Both the European Union and the United States, but especially 
the European Union, have emphasized the need for creation of a broad-
based Somali Government and reconciliation with disaffected elements of 
Somali society, including moderate elements of the Islamic Courts and 
civil society organizations. TFG President Abdullahi Yusuf has agreed 
to the holding of a reconciliation conference, although no place or 
date has been set. There are also unsettling reports from other 
elements of the TFG that raise questions about its commitment to this 
objective.
    The enormous amount of energy being devoted by the African Union 
and the international community to the raising of a peacekeeping force 
for Somalia would be better spent in convincing, no demanding, that the 
TFG and other parties begin immediately a serious process that leads to 
power sharing. This should be the highest priority of the international 
community, including the United Nations, African Union, Arab League, 
European Union, and United States. If meaningful talks get underway 
soon, it will reduce the likelihood of conflict or violence and 
increase the possibility that African troops can enter the country 
peacefully. This should be a Somali-driven reconciliation process that 
ideally takes place in Mogadishu. There is no longer a time or place 
for another Somali peace conference in three-star hotels in foreign 
countries. The outcome may well result in a restructuring of the Somali 
Parliament and Ministries, which are far too numerous, and will 
certainly involve sharing power with some elements of Somali society 
that are poorly represented in the TFG.
    The alternative may well be a phantom African peacekeeping force 
that arrives too late to achieve any real purpose in Somalia. In any 
event, the TFG probably envisages AMISOM as tantamount to a praetorian 
guard to keep it in power. The TFG must prove to the Somali people that 
it is prepared to win their respect and support. Only then will there 
be a meaningful role for AMISOM and only then will the TFG be in a 
position to create a national government that has long-term prospects 
for survival. Its ability to govern will be sharply limited and its 
longevity highly doubtful if it remains dependent on the presence of 
foreign troops.
    The beginning of a meaningful reconciliation process should serve 
as the signal to the international community to increase substantially 
its humanitarian and development assistance to Somalia. The United 
States has been especially generous in providing humanitarian aid while 
the European Union has been somewhat more forthcoming with development 
and reconstruction activities. U.N. specialized agencies such as the 
World Food Program, UNDP, and UNICEF have done most of the heavy 
lifting in recent years. Real progress on Somali reconciliation should 
result in much more effort by all international partners.

    Senator Feingold. Thank you, Doctor, for a very clear and 
helpful presentation.
    Dr. Menkhaus.

STATEMENT OF DR. KEN MENKHAUS, PROFESSOR OF POLITICAL SCIENCE, 
                 DAVIDSON COLLEGE, DAVIDSON, NC

    Dr. Menkhaus. I'd like to thank the subcommittee members 
and Chairman Feingold for the opportunity to participate in 
this timely hearing on Somalia.
    And, with your permission, I'd like to submit my written 
testimony.
    Senator Feingold. Without objection.
    Dr. Menkhaus. Also, with your indulgence, I'd like to speak 
loosely off of my notes, rather than read them, in the interest 
of avoiding duplication of what other speakers have had to say.
    I've been asked to provide a brief analysis of Somalia's 
recent political developments as a point of departure for 
discussion of the development of a U.S. strategy toward 
Somalia, and I'd like to begin by discussing the dramatic 
events in 2006.
    Many of those events have already been touched on, but just 
to refresh our memory, after 15 years of complete political 
paralysis and state collapse in Somalia, we had quite an 
eventful year, starting with the TFG Parliament reconvening 
unexpectedly after being moribund for over a year. At the same 
time, an Alliance for the Restoration of Peace and 
Counterterrorism, a group of U.S.-backed militia leaders and 
businessmen formed a coalition. That alarmed the ascendant 
Islamist movement in Mogadishu. A 4-month war ensued in 
Mogadishu, which culminated in a dramatic victory on the part 
of the Islamists. They consolidated control not only over all 
of Mogadishu, but quickly expanded their authority through most 
of south-central Somalia, leaving the TFG, at that point in 
time, precariously perched in a transitional capital in Baidoa 
and holding a few other hinterland areas, but really looking 
like they were on the verge of collapse.
    It's important to remind ourselves, too, that the Union of 
Islamic Courts, or the CIC later, provided Mogadishu with a 
level of rule of law, public order, and governance that it--the 
city had not seen in 15 years, and that earned the CIC a fairly 
strong measure of public support in Mogadishu.
    We also know that--over time, that the CIC, as Assistant 
Secretary Frazer pointed out, became increasingly radicalized. 
Its most reckless policies were those directed toward Ethiopia. 
And to put that set of policies in perspective, I think it's 
worth pointing out that hard-liners in this broad umbrella saw 
fit to mobilize for jihad against Ethiopia as a way of 
conflating their Islamist ideology with pan-Somali nationalism 
and anti-Ethiopianism to increase their base of support, 
marginalize the moderates. In the short term, this was highly 
effective. In the long term, that bought them a war, a 
disastrous war, with the largest standing army in sub-Saharan 
Africa.
    Dialog during that time between the Council of Islamic 
Courts and the TFG was attempted. The United States and other 
governments sought to bring them together to negotiate a 
government of national unity. All agreed that that was the best 
window of opportunity at the time. All were disappointed with 
the lack of progress. And I think as we look back, we'll see 
that intransigence on both sides was very much to blame. The 
TFG feared negotiating from a position of weakness, feared 
losing key positions. Ethiopia was not entirely sure it wanted 
to support a process that could lead to Islamists essentially 
taking over the TFG as a Trojan horse. And many of the hard-
liners in the Islamist movement saw no reason to revive a TFG 
that they thought they were about to defeat from within, in a 
matter of weeks or months.
    Finally, in late 2006, we had the war. The Ethiopian 
offensive occurred. Again, the details of that have been 
provided already, but, just to reinforce what Assistant 
Secretary Frazer said, one of the things that was remarkable 
about that war was the extent to which the CIC was not 
defeated, but was dissolved internally. The loss of support 
from inside Mogadishu signaled to many of us that the hard-
liners had gone too far. It's not entirely sure that they 
actually sought a war with Ethiopia, they may have just sought 
mobilization for war--were playing brinksmanship, and lost. But 
a broad section of the Mogadishu population was very angry at 
them--that included clan elders, it included the business 
community, and it included moderate Islamists--for drawing them 
into an unnecessary war, forcing the Islamist leaders to flee 
southward toward the Kenyan border or melt back into Mogadishu.
    That culminated with Ethiopia occupying Mogadishu, another 
very unexpected development, and the TFG's arrival as a 
fledgling administration in the capital.
    Where do we stand today? The situation in Mogadishu is 
tense, it's fragile, and it's deteriorating. Ethiopia is 
intending to partially withdraw its troops to avoid a quagmire. 
The good news with that is that, if they withdraw their forces, 
they are eliminating the main target that an insurgency would 
attack. The downside, as has been pointed out, is that runs the 
risk of leaving a vacuum if the African Union forces are not 
able to deploy in a timely manner.
    The TFG itself still remains very, very weak. It is not 
providing basic administration in the capital. The population 
there compares now the kind of public security that they earned 
under the Council of Islamic Courts to the TFG, and the 
comparison is not flattering. The public response to the TFG 
inside Mogadishu ranges from tepid and opportunistic support to 
outright hostility and rejectionism.
    Criminal lawlessness is up dramatically in the city. 
Warlords have returned and reassumed their place in their 
fiefdoms. There is a rise in sporadic violence targeting both 
Ethiopian troops and Transitional Federal Government 
installations and officials, including the beginnings of what 
looks like another dirty war, such as we had in 2004-05, a rise 
of political assassinations. It's important to point out, I 
think, that that is not, at present, an insurgency, as we would 
normally define it. The violence is a combination of criminal 
violence, of clan-based resistance, of warlord opportunism, and 
some Islamist violence directed at Ethiopia and the TFG, as 
well.
    In the midst of this deteriorating situation in Mogadishu, 
we have an international response that's based on three pillars 
that have already been described. That is, first, mustering and 
deploying an African Union peacekeeping force to replace the 
departing Ethiopians; second, generating revenue, the funding 
and support to build the governance capacity of the TFG; and 
then, third, the promotion of political dialog to make the 
Transitional Federal Institutions more inclusive, to make 
Mogadishu population stakeholders in the TFG, as opposed to 
opponents.
    Political dialog is not going particularly well. The fact 
is, when you take the temperature in Mogadishu, the sense is 
that the TFG leadership is seeking a victor's peace, it is 
engaged in a variety of policies that seem designed to alienate 
and marginalize its key opponents, rather than bring them into 
the government. Even the reconciliation conference that has 
been called for by the President appears designed more to bring 
people in who already support the TFG, rather than the key 
opponents to the Transitional Government.
    Both sides are responsible for the impasse, at this point. 
The TFG has certainly done its part in seeking this victor's 
peace. But, on the other side, the Mogadishu opponents seem 
committed, at this point, to rendering Mogadishu ungovernable. 
They don't have to defeat the TFG. All they have to do is play 
for a draw, and then run the clock out while the TFG has only 
2\1/2\ years left on its mandate. And they appear perfectly 
capable of doing this. They don't need outside help to foil the 
TFG's progress. All they need is a base support in Mogadishu 
from the population and from some political elites, and they 
have that in abundance, at this point.
    To the three pillars. In my view, the deployment of 
African----
    Senator Feingold. I'm going to have to ask you to conclude 
pretty soon so we can hear----
    Dr. Menkhaus. OK.
    Senator Feingold [continuing]. From Dr. Morrison.
    Dr. Menkhaus. Very good.
    I would say that, of the three pillars that we are pursuing 
in support of peace and reconciliation in Somalia, dialog has 
to be privileged. If African Union peacekeepers are sent in the 
absence of dialog toward a more inclusive government, they will 
be viewed as enemies in Mogadishu, and they are likely to be 
targeted. If they aren't targeted, they are likely to have to 
pay for their own protection. Likewise, state-building funds, 
if they are provided to the TFG in the absence of dialog, are--
were going to be perceived by opponents of the TFG as having 
taken sides.
    Just as a final point: What happens if we get to that 
worst-case scenario, where the TFG, in fact, is not able to 
bring together a large consensus and a government of national 
unity?--the question that you asked----
    Senator Feingold. Yes.
    Dr. Menkhaus [continuing]. Earlier this morning. And I 
think one of the scenarios that we have to start looking at is: 
Can we assist the Transitional Federal Institutions to move 
forward on the key aspects and functions of the transition, 
which is to say, deliberating over a constitution, setting up a 
referendum, and setting up elections to end the transitional 
process and bring in a full-fledged government in Somalia, even 
if it has not been able to govern most of the country. That may 
sound like an absurd scenario, but, in fact, we've seen that 
already in the Democratic Republic of the Congo, where the 
government was essentially paralyzed throughout the entire 
time, and yet, it muddled through, thanks to a strong national 
electoral commission and robust external support. That's 
important, because what that does is, it would send a signal to 
the potential spoilers that, ``You can block the government's 
capacity to govern in Mogadishu, but if you don't join the 
Transitional Institutions, and they're the only game in town, 
you lose out on a voice in the final dispensation of the 
country.''
    Thank you.
    [The prepared statement of Dr. Menkhaus follows:]

 Prepared Statement of Dr. Ken Menkhaus, Professor, Political Science, 
                     Davidson College, Davidson, NC

    I would like to thank the subcommittee members and Chairman 
Feingold for the opportunity to participate in this timely hearing on 
Somalia.
    The task of crafting a comprehensive strategy for Somalia which 
harmonizes different, sometimes competing U.S. policy priorities in the 
country will stand a much better chance of success if grounded in 
accurate analysis of the nature of both the crises and opportunities 
posed by Somalia. To that end, I have been asked by the subcommittee to 
provide a brief analysis of Somalia's recent political developments as 
a point of departure for discussions of U.S. strategy toward Somalia.
                      the seismic changes of 2006
    After 10 years of political paralysis and state collapse, Somalia 
experienced a dramatic series of political changes in 2006. These 
developments began with the establishment in February 2006 of a U.S.-
backed Alliance for the Restoration of Peace and Counter-Terrorism in 
Mogadishu. That alliance brought together a group of rival militia and 
business leaders with whom the U.S. Government was partnering in an 
attempt to monitor terrorist activity in Mogadishu. U.S. concern over 
possible misuse of Somalia as a safe haven for foreign al-Qaeda 
terrorists focused on a small number of individuals implicated in the 
1998 terrorist attacks on the U.S. Embassies in Nairobi and Dar es 
Salaam, as well as a bombing of a Mombasa resort in 2002 and a failed 
attempt to take down an Israeli chartered flight leaving Mombasa. Those 
``high value targets'' were enjoying safe haven in Mogadishu under the 
protection of a small group of hard-line Somali Islamists who held top 
positions in the umbrella group known at the time as the Supreme 
Council of Islamic Courts, later renamed the Union of Islamic Courts 
(UIC).
    The establishment of the counterterrorism alliance inadvertently 
triggered an extraordinary chain of events. The Islamists, alarmed at 
what they viewed as an alliance set up to attack them, launched 
preemptive attacks against the alliance militias. The 4-month war which 
ensued culminated in a decisive victory for the Islamists in June. The 
UIC quickly imposed effective control over Mogadishu, bringing 
dramatically improved rule of law to the city, earning a measure of 
``performance legitimacy'' and enjoying widespread support from Somalis 
both inside and out of the capital. By July, the UIC expanded its 
control across most of south-central Somalia, and emerged as the most 
powerful and popular political force in the country. Its principal 
rival, the Ethiopian-backed Transitional Federal Government (TFG), 
retained nominal control over the provisional capital, Baidoa, and some 
other regions in the hinterland, but was in a position of grave 
weakness and appeared vulnerable to internal collapse.
    External actors, including the U.S. Government, urged the TFG and 
moderates within the UIC leadership to engage in political dialog with 
the aim of creating a more inclusive transitional government which 
would be accepted in Mogadishu. Talks held in Khartoum yielded little, 
however, and tensions quickly arose. For their part, the TFG leadership 
appeared unwilling to engage in serious power-sharing discussions, and 
Ethiopia was unwilling to risk allowing the Islamists to use the TFG as 
a Trojan horse. Ethiopia increased its troop presence in and around 
Baidoa, inflaming the Islamists. As for the UIC, hard-liners in the 
umbrella movement appeared intent on stoking hostilities with Ethiopia, 
in large part to mobilize support and marginalize moderates within the 
movement. Islamist hard-liners such as Hassan Dahir Aweys repeatedly 
invoked jihad against Ethiopia, called for Ethiopians to rise up 
against the Meles regime, and made irredentist claims on Somali-
inhabited territory in eastern Ethiopia. The UIC also forged close 
links to Ethiopia's rival Eritrea, and funneled arms to two armed 
insurgencies inside Ethiopia, the Oromo Liberation Front and the Ogaden 
National Liberation Front. In the short term, the call for jihad 
against Ethiopia proved to be a very effective political tool for 
Aweys. By conflating Islamism, pan-Somali nationalism, and anti-
Ethiopianism, he won broad support from Somalis at home and in the 
diaspora, including many who did not subscribe to the increasingly 
draconian Islamist rule imposed on residents of Mogadishu. In the long 
run the tactic bought Aweys and his supporters a disastrous war against 
sub-Saharan Africa's largest and most seasoned standing army.
    The UIC's slide toward radicalization in the latter half of 2006 
made war with Ethiopia likely if not inevitable, and eventually led 
many external observers to conclude that the many moderates in the UIC 
movement were too weak to redirect the movement's increasingly reckless 
policies. The position of the U.S. Government shifted toward greater 
emphasis on the UIC's alleged al-Qaeda links and Ethiopia's legitimate 
security concerns, a signal that some observers construed as amounting 
to American ``tacit support'' of an Ethiopian offensive against the 
UIC. That Ethiopian offensive was launched in late December, and 
produced not only a decisive victory in initial battles in the open 
countryside but also an unexpected internal collapse of the UIC back in 
Mogadishu. There, hard-liners were confronted with widespread 
defections by clan militias, businesspeople, and moderate Islamists. 
Local clan and business leaders also refused to allow the UIC to 
conduct a guerrilla war in Mogadishu, on the grounds that that would 
produce devastating loss of life and damage to property. Residual UIC 
forces and leaders, including an undisclosed number of foreign 
jihadists who had joined the UIC in 2006, were forced to flee southward 
to Kismayo, where they were again blocked by local residents from using 
the city as a base. The remnants of the UIC forces either melted back 
into Mogadishu, sought to cross the Kenyan border, or remained hidden 
in the inaccessible forested areas along the coastal Kenyan-Somali 
border area. At least two aerial attacks were launched by American AC-
130 gunships at convoys suspected of containing the three foreign al-
Qaeda suspects sought by the United States. There is no evidence that 
those high-value targets were hit in the attacks; U.S. Assistant 
Secretary of State Jendayi Frazer reported that eight members of the 
Somali jihadist militia known as the shabaab were killed in one attack.
    The UIC's sudden collapse led to the subsequent Ethiopian 
occupation of the capital and the arrival of the TFG leadership to the 
capital. Despite efforts by the TFG to create a police force and name a 
local administration, the capital quickly slid into lawlessness and 
armed criminality. Militia leaders deemed ``warlords'' by many 
Mogadishu residents returned to their neighborhoods and reclaimed their 
militias. By January 2007, armed attacks against Ethiopian forces and 
TFG installations increased, raising the specter of a complex 
insurgency by a loose combination of Islamists, warlords, armed 
criminals, and clan-based militias. Determined to avoid being drawn 
into a quagmire, Ethiopia announced intent to withdraw its forces 
within weeks and appealed to the African Union to send replacement 
protection forces into Somalia.
                         the current situation
    As of early February 2007, the situation in Somalia is precarious. 
Efforts to encourage the TFG leadership to engage in dialog with 
Mogadishu-based leaders, including moderate elements of the dissolved 
UIC, have met with frustration. The TFG coalition remains narrow, and 
is deeply resented by most Mogadishu groups. Top TFG leaders appear 
committed to imposing an elusive victor's peace on Mogadishu. Armed 
attacks against TFG personnel and buildings are on the rise. Efforts to 
deploy an AMISOM (African Mission in Somalia) peace enforcement force 
to Somalia remain the subject of intensive diplomatic energies, but it 
is not yet clear that those forces will be mustered in a timely manner, 
if at all. Somali jihadists have issued threats to kill foreign 
peacekeepers should they be deployed.
    The mood in Mogadishu is, by all accounts, weary, sullen, and 
angry. Anti-American sentiment is high. Rightly or wrongly, the United 
States is held indirectly responsible for the collapse of public order 
in Mogadishu. Though most residents are said to be desperate for a 
return to rule of law and public order, most expect a return to wider 
violence. Those with the means have relocated their families abroad. 
The price of ammunition and small arms has shot up in local markets in 
anticipation of troubles.
    The TFG has made almost no progress in providing improved public 
security or other government services in the capital. This record 
stands in stark contrast to the performance of the UIC administration, 
the standard against which the TFG is now being judged by impatient 
Mogadishu residents.
    Ironically, the end result of the seismic changes of 2006 is to 
some extent a return to the status quo ante bellum. Somalia in early 
2007 looks very much like Somalia of 2005, featuring a weak and 
unpopular TFG facing resistance from a loose coalition of clans, 
Islamists, and other interests in Mogadishu, in a context of de facto 
state collapse.
                        assessment and analysis
    The best hope for Somalia at present is initiation of sustained 
political dialog which yields a more inclusive transitional 
government--one which empowers and reassures key constituencies in 
Mogadishu and the rest of Somalia. Anything less than that will leave 
important segments of the Mogadishu population inclined to play the 
role of spoiler. To date, neither the TFG nor the loose coalition of 
interests in Mogadishu opposing the TFG have made genuine efforts to 
pursue political dialog. The TFG leadership has embarked on a series of 
policies seemingly intended to alienate its rivals, including ill-
advised and unfeasible calls for forcible disarmament of Mogadishu. 
Most Mogadishu opposition to the TFG appears intent on pursuing a 
strategy of making Mogadishu ungovernable as a means of blocking the 
TFG. The TFG's opponents do not need to defeat the TFG; they only need 
to play for a draw, prevent the TFG from extending an administration 
across key part of the country while waiting for the clock to run down 
on the TFG's remaining 2\1/2\-year mandate.
    Every effort is being made to simultaneously promote 
reconciliation, muster, and deploy AU peacekeepers, and generate funds 
and support to improve the governance capacity of the TFG. Ideally, 
these three goals will be advanced in tandem. But there are real 
dangers if they do not proceed in unison. In particular, if ANISOM 
forces are deployed and robust capacity-building measures are provided 
to the TFG in the absence of political dialog, Mogadishu constituencies 
will view these external policies as a form of aggression against them, 
by empowering a government they reject. In that event, the AU forces 
will either be subjected to attacks and kidnappings, or will be forced 
to pay protection money to local militias to insure their own safety--a 
practice that occurred frequently in the ill-fated UNOSOM operation of 
1993-94. For this reason, promotion of political dialog and other 
measures designed to make Mogadishu clans and constituencies 
stakeholders in the transitional government must be afforded top 
priority. Dialog needs to be considered a precondition for, not a 
complement to, state-building and peacekeeping initiatives.
    The TFG leadership has understandably made passionate appeals to 
the international community for substantial foreign aid to enable it to 
build an effective governmental capacity, and many sympathetic external 
observers have come to equate robust foreign aid to the TFG with 
commitment to state-building in Somalia. The relationship between 
foreign aid and state-building in Somalia is actually more complex. In 
the wrong circumstances; high levels of foreign aid has redirected the 
energies of political elites away from the onerous task of governance 
toward controlling and diverting foreign aid. It also tempts political 
leaders to use cash to play divide and rule, playing off and splitting 
rivals, rather than engaging in the more direct but more sustainable 
task of real reconciliation and power-sharing. It is worth noting that 
the three instances of impressive state-building in Somalia since 
1991--the secessionist state of Somaliland, the autonomous state of 
Puntland, and the UIC's 6-month administration of Mogadishu and 
surrounding areas--were all achieved with minimal external assistance. 
What this suggests it that external insistence on a few preconditions 
for foreign aid--real political dialog, and genuine efforts to begin 
basic government services--is vital to ensure the success of the TFG.
    In the event that AMISOM forces cannot be deployed in adequate 
numbers to replace the Ethiopian troops, the TFG is unlikely to 
maintain a meaningful presence in Mogadishu. Security incidents 
directed against the TFG will increase, and its leaders will pull back 
to the town of Baidoa or go on extended foreign trips. The result will 
be a divided Somalia and a paralyzed TFG. Recent actions and statements 
by Somali figures make this an unfortunate but increasingly likely 
scenario, one for which policymakers in the international community 
must develop contingency plans. A withdraw or collapse of the TFG need 
not coincide with a rise of armed conflict, though it may. External 
efforts to promote a ``soft landing'' in Mogadishu, assisting local 
authorities to revive at least some semblance of local governance 
structures from the past, would protect the capital from a free-fall 
into armed anarchy and might earn a small measure of goodwill from a 
Mogadishu population that harbors deep anger at the outside world--and 
the United States in particular--for its perceived support of an 
Ethiopian offensive which destroyed a political order that brought 
public security to the city for the first time in 15 years.
    At present, the growing levels of armed violence in Mogadishu do 
not amount to an insurgency. The Ethiopian withdraw is depriving would 
be insurgents of their principal target, and the TFG is not enough of a 
threat to require an organized insurgency. The current violence is an 
admixture of armed criminality, sporadic clan-based resistance to the 
TFG, warlord adventurism, and Islamist resistance. Of these, the latter 
two will be most difficult to contain. The warlords have a vested 
interest in creating lawlessness and blocking the TFG; the Islamists 
have a vested interest in blocking the TFG before setting up their own 
administration again, at which point their alliance of convenience with 
the warlords will again turn into an armed rivalry.
    The dissolution of the UIC as an organization should not be 
confused with the fate of political Islam in Somalia. Political Islam 
remains an ascendant and diverse movement in the country and will play 
a role in any future political dispensation in Somalia. Treating all 
Somali Islamists as radicals or al-Qaeda associates would be a serious 
error.
    The unexpected internal collapse of the UIC revealed deep fissures 
in the movement between moderates and radicals, and exposed the extent 
to which hard-liners lost support of their core constituencies by 
pursuing confrontation and jihad with Ethiopia. The fact that business 
and clan leaders in Mogadishu insisted that the Islamists not wage a 
destructive insurgency in Mogadishu offers hope that Mogadishu-
based groups are keen to protect investments there and avoid war, and 
may as a result be more open to dialog. The failure of the hard-line 
Islamists offers lessons about the fate of any political authority in 
Somalia that opts to embrace authoritarianism, concentrates power in 
the hands of a few, and is noninclusive.
    One of the most important questions emerging from the UIC's 
collapse in December 2006 is whether and in what form the Islamist 
movement is likely to regroup. In the past, setbacks to Islamist 
movements in Somalia have led them to assimilate back into the local 
community and remain a loose network of ``alumni'' until conditions 
improve. In current conditions, however, the worry is that remnants of 
the jihadist militia known as the shabaab will regroup in cells and 
launch terrorist attacks and assassination attempts both inside Somalia 
and against soft western targets in the region. It is impossible to 
know if many or any of these radicalized young shabaab members will 
engage in terrorist acts. But we have learned in Somalia that a small 
number of committed jihadists have the potential to produce an enormous 
amount of fear and instability.
    Aside from a handful of warlords, state collapse is not in anyone's 
best interest in Somalia. Most Somali households and businesses would 
obviously benefit from revived central government; Ethiopia and Kenya 
would prefer to have a moderate and functional government on their long 
borders with Somalia; and the United States would prefer to have an 
effective government partner to monitor and prevent terrorist 
activities inside Somalia. But while state collapse is no one's first 
choice for Somalia, it is almost everyone's second choice. Ethiopia, 
the United States, and many Somali businesses and political leaders 
have learned to cope with and adapt to a condition of state collapse in 
Somalia. This is dangerous, because it means that if efforts at 
reconciliation and state-building become too onerous or risky, many 
interested parties will be willing to walk away and allow Somalia to 
revert to a state of collapse.
    This latter point has special implications for the subcommittee's 
stated aim in this hearing, the promotion of a comprehensive strategy 
for Somalia. In the past, U.S. counterterrorism activities and its 
stated aim of promoting state-building in Somalia tended to be delinked 
and at times even worked at cross-purposes. Though calls to 
``deconflict'' state-building and counterterrorism policies were made, 
the two remained largely separate enterprises until recently. Since 
revival of an effective state authority in Somalia is an essential 
component of our long-term efforts to combat terrorism in the country, 
this really amounts to a tension between short-term versus long-term 
counterterrorism measures. Our short-term measures--working through 
nonstate actors to monitor and apprehend foreign terror suspects in 
Somalia--were questionable in their effectiveness, and in the process 
created incentives for militia leaders to block state-building efforts 
that would in effect put them out of business. If the TFG fails to 
consolidate control over Mogadishu, the United States will again face 
worrisome short-term threats that the city could provide a safe haven 
for foreign terrorists, and will be tempted again to contract with 
local nonstate partners in the capital. I would submit to the honorable 
members of the subcommittee that progress toward a comprehensive 
strategy for Somalia must find a way to resolve this tension between 
short-term and long-term counterterrorism goals.

    Senator Feingold. Thank you very much, Doctor, for that 
excellent, if troubling, report.
    Dr. Morrison, thank you for your tremendous patience and 
for your work in this area. You may proceed.

   STATEMENT OF DR. J. STEPHEN MORRISON, EXECUTIVE DIRECTOR, 
AFRICA PROGRAM, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, 
                         WASHINGTON, DC

    Dr. Morrison. Thank you very much, Senator.
    I would request that my full statement be entered into the 
record.
    Senator Feingold. Without objection.
    Dr. Morrison. I'm going to speak briefly, drawing on the 
January 17 conference that we organized with the U.S. Institute 
of Peace and with the Council on Foreign Relations, at which 
you, Senator, honored us by kicking that off.
    The most fundamental challenge, it seems to me, for U.S. 
policy right now is how to proceed with realism and caution and 
patience, and how to blend or integrate the hard 
counterterrorism equities that we have there with the softer 
equities that we have in getting a broadened compact negotiated 
for governance in Somalia, for meeting the dire humanitarian 
needs and beginning some reconstruction.
    Right now, there is no clear vision, and there is no strong 
interagency process that brings those two pieces of the hard 
and soft together. There's quite a bit of imbalance in the 
approach. And there's quite a bit of confusion and suspicion, 
within the region and beyond, around U.S. intentions. So, in 
terms of defining a strategy and a policy, this is, I believe, 
the core challenge before us.
    There are a couple of other key dimensions that I think 
need highlighting. One is, not only is establishing a viable 
governing system the sine qua non of progress, and has to be 
the top priority, but we need to consciously and systematically 
prepare for at least an interim failure in the near term. This 
is a--you know, the probabilities are so strong in that regard.
    Second is, we should not allow ourselves to become obsessed 
with chasing after an 8,000-person AU force, when the signs are 
all there that, at best, we're going to see a modest deployment 
that will probably be concentrated in and around Mogadishu.
    Third, we need to move quickly to strengthen U.S. 
diplomatic capacities and to enlarge the leadership that we can 
exercise, particularly in the Security Council.
    On the key findings that we have identified, that I think 
should guide policy, one is that there is great uncertainty 
surrounding what is happening on the ground and within the 
region with respect to the Islamist movement. That means we 
need to intensify our analyses and engagement.
    Second, the TFG continues to lack capacity and legitimacy, 
and has a high probability of folding.
    Third, the TFG has, thus far, failed to enlarge its 
governing coalition, and is moving in that direction, and our 
leverage on that score, we need to reexamine and be much more 
creative in how we can move the TFG.
    Fourth, the Mogadishu security has deteriorated since the 
removal of the security network provided by the Islamist 
Courts, and we have to assume that that trend line will 
continue.
    Fifth, the Ethiopians are withdrawing. They are a lightning 
rod within Mogadishu. And their withdrawal will create gaps and 
will stimulate a spike in violence within Mogadishu.
    Sixth, Islamism remains popular and legitimate. It is a--it 
has a strong hand. It is fundamental to whatever governing 
coalition is going to emerge. And it can wait out the failures 
of current leadership.
    Seventh, our counterterrorism strikes have put us into a 
strong strategic embrace with Ethiopia and the TFG. If we're 
going to counteract and distance ourselves from that, we need a 
diplomatic strategy that consciously seeks to do that.
    Our recommendations are that, first of all, we--and this is 
consistent with what David and Ken have said--intensify the 
pressures upon the TFG to enlarge the governing coalition, make 
use of our access in Yemen and Kenya and elsewhere to the 
Islamist Court remnants, be very realistic about what we can 
achieve from an AU peacekeeping operation, intensify the 
Security Council engagement. And I would add there, the Chinese 
were very helpful in the early phase of putting through 1725, 
and can be, I believe, helpful in that regard, if we were to 
turn to the Security Council to intensify its involvement. We 
should ensure that we have a robust and sustainable funding 
flow. And you've put forward, Senator, the idea of a trust 
fund. I think that's a laudable idea. I hope that can be moved 
forward. But key to our leverage and our ability to really move 
forward is getting much higher and more sustainable and 
predictable forces--flows of resources.
    Fifth point, that we can--we have institutional capacities 
that we are expanding--the humanitarian operations we've heard 
a lot about today--and those are very laudable. We can add to 
those expanded work in health and education, in making greater 
use of the combined joint task force of the Horn of Africa, for 
a number of constructive operations, and by intensifying our 
analytic capacities.
    I agree that we need--have a need for a senior-level figure 
to manage the interagency and ride the circuit at a senior 
level within the region and in Europe. This person can 
complement and greatly augment our capacities. I would add also 
that Deputy Secretary of State John Negroponte can play a very 
important role here in making Somalia a part of his portfolio 
as he begins his work.
    Last point is that we can encourage, within the United 
States, greater unity among the Somalia diaspora community. 
That community has been very exuberant, but remains divided. It 
is seeking to unify itself this month. It is making a 
significant play in that regard. Remittances are estimated at 
as high as $1 billion per year to Somalia from the diaspora. 
This is an influential, highly gifted and talented community, 
which is moving toward unity, and we should be very strategic 
in how we make use of that.
    Thank you very much.
    [The prepared statement of Dr. Morrison follows:]

  Prepared Statement of Dr. J. Stephen Morrison, Executive Director, 
    Africa Program, Center for Strategic and International Studies, 
                             Washington, DC

                              introduction
    Senator Feingold, Africa Subcommittee chairman, and Senator Sununu, 
ranking minority, I commend you both for holding this timely hearing, 
and I thank you for the opportunity to contribute to the discussions 
here today.
    When we last gathered here, on July 11, 2006, it was to discuss 
what the U.S. strategy should be toward Somalia, after the Islamist 
courts had routed the U.S.-backed warlord coalition in May 2006. Six 
months later, we are gathered to consider what strategy makes sense now 
that the courts have been vanquished by the Ethiopians, with U.S. 
support.
    The wheel has certainly turned, and U.S. engagement has been 
enlarged conspicuously on several fronts, following a fallow period of 
virtual nonengagement dating back to the spring of 1994.
    Diplomatically, Secretary Rice has herself weighed in directly at 
key moments, while Assistant Secretary Frazer has been very active in 
Washington, in the Horn of Africa, and in Europe. Materially, the 
administration put on the table a $40 million assistance package for 
Somalia that for the first time in over 12 years reintroduces U.S. 
commitments to peacekeeping, reconstruction, and development in 
Somalia. On the security front, U.S. forces have been engaged directly 
in the air and on the ground in targeting terror suspects implicated in 
the August 1998 bombing of the U.S. Embassies in Kenya and Tanzania and 
the November 2002 attacks on an Israeli tourist hotel and airliner. In 
combination, these constitute a dramatic shift in the U.S. posture 
toward Somalia.
    We also see heightened interest in Somalia in other settings. 
Congress, thanks in no small measure to your leadership, Senator 
Feingold, has become very active on a promising bipartisan basis in 
support of expanded U.S. leadership on Somalia. The U.S. media and the 
U.S.-based Somali diaspora community have each become highly engaged. 
Here in Washington, the Center for Strategic and International Studies, 
in partnership with the U.S. Institute for Peace and the Council on 
Foreign Relations, launched in the fall of 2006 a very active Working 
Group on Somalia, as a direct outgrowth of the SFRC African 
Subcommittee July 2006 hearing, and with the support of your able 
staff, Grey Frandsen.
    The CSIS Working Group's January 17 conference, at which Senator 
Feingold, Assistant Secretary Frazer, several prominent Mogadishu and 
Kenya-based experts spoke, was attended by over 200 and widely reported 
in the media. Its success hinged also on the contributions made by my 
colleagues at CSIS, most notably John Hamre, Jennifer Cooke, and David 
Henek, and generous input from David Smock, U.S. Institute for Peace, 
Princeton Lyman, Council on Foreign Relations, and Howard Wolpe, 
Woodrow Wilson International Center. The body of my testimony today is 
a distillation of what was learned at the January 17 conference.
    Before I turn to the January 17 conference, I wish to emphasize 
that in several important respects, what was needed in July 2006 in 
terms of a U.S. strategy is still very much needed today. What is 
different is the visibility and urgency of what is required.
    Most fundamentally, the United States continues to be under 
pressure to define a coherent strategy that is grounded in realism, 
caution, and patience. It continues to lack a clear vision backed by a 
functioning interagency process that bridges the United States ``hard'' 
counterterrorism equities with its ``soft'' power interests in 
promoting a negotiated, broadened compact for governing Somalia, 
meeting dire humanitarian needs, and beginning reconstruction efforts. 
As in other parts of the world where U.S. counterterrorism interests 
are strongly at play, it is becoming clear in the Somalia context just 
how operationally difficult it is to integrate effectively the ``hard'' 
and ``soft'' dimensions of U.S. influence and to explain how those fit 
within multilateral processes. Much more can, and should be done in 
this critical sphere. So long as integration between ``hard'' and 
``soft'' is lacking, there will be substantial confusion in the region 
and beyond regarding U.S. intentions.
    Similarly, we continue to confront the profound weaknesses of the 
internal parties in Somalia and the urgent need to systematically test 
the Transitional Federal Government and to engage and test 
representatives of the Islamic courts. Establishing viable governance 
within Somalia remains the sine qua non for future progress. Our 
diplomatic presence inside Somalia is nil, but we do have important 
access to Somali leaders, including Islamists in Kenya and elsewhere, 
and we have the ability to lay out how U.S. support can be structured 
to support improved governance.
    Although there is very active planning and discussion around the 
possible future deployment of an African Union 8,000 person force to 
replace the Ethiopian military, the picture today is not substantially 
different from July. There is simply little prospect that an external 
African Union force will enter Somalia soon that will be able to shape 
the security situation on the ground substantially. We need to think 
and focus our actions on priorities such as security in and around 
Mogadishu, and avoid chasing an unrealizable goal that distracts us 
from what is really feasible and urgently required.
    As in July, the United States continues to need stronger U.S. 
diplomatic capacities and enhanced leadership in multilateral channels, 
especially the U.N. Security Council. An integral part of that 
continues to be the need for a broad and aggressive diplomatic effort 
aimed at expanding the Somali Contact Group and pressuring Saudi 
Arabia, Yemen, the Emirates, Egypt, and Eritrea to curb materiel and 
financial support to radical Islamists and warlords.
             outcomes of the january 17 conference at csis
    On January 17, 2007, the Center for Strategic and International 
Studies, in collaboration with the Council on Foreign Relations, the 
U.S. Institute of Peace, and the Woodrow Wilson International Center, 
hosted a major conference in Washington, DC, titled ``Somalia's Future: 
Options for Diplomacy, Assistance, and Peace Operations.'' The 
conference brought together expert observers from Mogadishu, senior 
U.S. policymakers, representatives from humanitarian assistance 
organizations, and regional analysts to convey to a U.S. audience the 
current situation in Somalia and lay out the challenges before the 
United States and the broader international community.
    Conference participants agreed there is a window of opportunity for 
the United States, in collaboration with Somalis and the broader 
international community, to effect positive change in Somalia, but that 
this window may close in the near future. After 12 years of policy 
disengagement that followed the failed U.S. military intervention of 
1993, the United States has an opportunity to forge a forward-looking, 
comprehensive strategy to address immediate security concerns and the 
longer term threat of regional instability. In your opening speech at 
the conference, Senator Feingold, you summarized the challenge: ``We 
cannot allow our past to overshadow the pressing security concerns we 
face in the [Horn of Africa] today. We have an opportunity to help the 
Somali people dig themselves out of almost two decades of chaos and to 
strengthen U.S. national security at the same time. But if our 
government does not move quickly and aggressively on all fronts, we can 
be sure Somalia will continue to be a haven for terrorist networks and 
a source of instability that poses a direct threat to the United 
States.''
                key findings: the situation in mogadishu
    1. Great uncertainty persists. Regional experts and speakers from 
Somalia described the great uncertainty that currently pervades 
Mogadishu and the highly tenuous position of the newly empowered 
Transitional Federal Government. Major unknowns include the possible 
emergence of a dual insurgency, emanating at once from alienated clan 
militias and from ideologically driven ``jihadi'' fighters, remnants of 
the radical core of the defeated Union of Islamic Courts (UIC). Unclear 
also is the nature of links between the UIC's radical leadership, now 
dispersed in southern Somalia, Kenya, and the Saudi Peninsula, and 
Islamist networks within Mogadishu.
    2. The Transitional Federal Government (TFG) continues to lack 
capacity and legitimacy. It is unpopular and fragile, and today sits 
precariously in Mogadishu, installed and protected by Ethiopian 
military forces, who have indicated their intent to withdraw within 
weeks and reportedly begun that process in earnest. The conditions that 
allowed the Islamic courts to emerge and win local support in 
Mogadishu--notably the alienation of the Hawiye clan from the 
structures of the TFG and the utter lack of security and basic 
services--today remain very much intact.
    3. The TFG has thus far failed to enlarge its governing coalition. 
It is internally fractured, and has sent decidedly mixed signals on its 
willingness to broaden its base of support and legitimacy. Its 
leadership has held some consultations with clan elders, members of 
civil society, and former Somali Presidents, and TFG President 
Abdullahi Yusuf Ahmed has recently committed to a national 
reconciliation conference, but there is little evidence that these 
consultations have resulted in an enlarged governing coalition.
    The dismissal on January 17 of Parliamentary Speaker Sharif Hassan 
Sheikh Adan, who opposed Ethiopia's military intervention and called 
for talks with former leaders of the UIC, does not bode well for unity 
and tolerance within the TFG or broader reconciliation with remnants of 
the Islamist movement. The TFG's imposition of martial law, temporary 
closure of media outlets, and forceful disarmament of local residents, 
has left Mogadishu residents uncertain and nervous. As yet the 
government has not made a clear distinction between those among the UIC 
leadership whom it considers criminal and the many residents of 
Mogadishu who supported the courts for their security and services they 
provided.
    4. Mogadishu's security has deteriorated since the removal of the 
security network created by the Islamic courts. Targeted killings, 
abductions, and revenge killings are reportedly on the rise. Mogadishu 
residents, their expectations raised by the success of the courts in 
providing local security, now look to the TFG for an equivalent level 
of order. The TFG is currently incapable of providing security, and, 
until it can forge some agreement with local Mogadishu groups, must 
rely on Ethiopian or other external forces who may be introduced in the 
future to replace departing Ethiopian troops. The greatest potential 
flash point for conflict remains in Mogadishu, and success or failure 
of stabilization efforts there will determine Somalia's future.
    5. Ethiopian forces have not created the basis for security. They 
are a lightning rod. The presence of Ethiopian troops in Mogadishu is 
highly divisive, and even if they currently provide some level of 
security, the longer they remain in large numbers, the more they will 
generate popular antagonism and resentment. Ethiopia, having 
successfully eliminated its principal security threat by vanquishing 
the UIC, has little stake in the longer, more difficult task of 
stabilizing Mogadishu. Given Ethiopia's eagerness to leave and the 
difficulty of quickly mustering adequate numbers of African Union 
troops, the handover of security operations will be fraught with risk 
and difficulty.
    6. Islamism remains popular and legitimate, and will be essential 
to any stable governing arrangements. Although the UIC as a political 
entity has dissolved, political Islam remains very much alive and will 
need to be accorded a role in deciding Somalia's future political 
dispensation. Islamic charities, businesses, and networks remain among 
the most robust and enduring. Mogadishu clan and business networks 
could become significant spoilers in the reconciliation process, but 
could also become powerful allies in restoring basic core services and 
local authority.
    7. U.S. counterterror strikes and the U.S. embrace of Ethiopia are 
highly controversial and have high costs at the popular level within 
Somalia and across the region. Still at large are the three ``high-
value'' al-Qaeda associates accused of organizing the 1998 Embassy 
bombings in Nairobi and Dar es Salaam and the 2003 hotel and airline 
attacks in Mombasa, Kenya. The three were allegedly given shelter by 
UIC leadership and were the principal targets of two successive U.S. 
air strikes in southern Somalia in January 2007. The status of current 
U.S. efforts to track down these three individuals and their supporters 
is unclear, but the air strikes have confirmed in the minds of many 
Somalis and regional actors that a close strategic alliance exists 
among the United States, Ethiopia, and the TFG, and that U.S. security 
interests predominate, at the expense of ``soft'' interests such as 
reaching a negotiated internal compact, and addressing humanitarian and 
reconstruction needs. For this reason, U.S. air strikes remain highly 
controversial, both in Somalia and among European partners, and feed 
regional suspicions of U.S. intentions, motives, and commitment to 
long-term stability. An aggressive U.S. diplomatic strategy will be 
essential to counteract these sentiments.
                priority recommendations for u.s. policy
    High risks of regression. The United States, in concert with other 
Western, African, and Middle East powers, will need to act quickly to 
avert worst case scenarios: An absolute vacuum of authority in 
Mogadishu; a dual insurgency led by clan militias and ``jihadi'' 
extremists; a worsening humanitarian catastrophe; and regional 
destabilization. But the United States will also need to be cautious in 
sequencing and calibrating actions for greatest effect.
    Humility and overcoming constraints. Further, the United States 
will need to approach Somalia with a degree of humility. After a decade 
of disengagement,
the United States operates from a tremendous deficit, in terms of 
policy, institutional capacities, credibility, and leverage over key 
players. It lacks real-time knowledge and enduring relationships on the 
ground, and has no full-time senior-level leadership in Washington or 
the region charged with directing policy. Beyond humanitarian 
assistance, which has averaged $90 million annually and sustains 
approximately 700,000 Somalis, the U.S. Government has lacked serious 
funding to leverage its aims in Somalia, although the commitment by 
Secretary of State Condoleezza Rice for an initial downpayment of $40 
million to support security operations, humanitarian assistance, and 
state development is a promising opening for expanded engagement and 
high-level attention.
    Priorities for U.S. policy in the near term will be to:
1. Press the Transitional Federal Government to resolve its internal 
        differences and to begin immediately a genuine process of 
        dialog and reconciliation
    A first priority must be to create internal governing structures 
that have some prospect of hope and legitimacy. The United States and 
its international partners must make clear that confidence in--and 
support for--the TFG will hinge on a demonstrated commitment to build 
and broaden its base of support, and begin a process of reconciliation 
with those groups who have been alienated and excluded. There are local 
authorities within Mogadishu--the business community, clans, local 
Islamic courts and charities--who can assist the TFG in rebuilding 
security and basic services and reassuring local residents. The TFG 
cannot afford to alienate these groups and should make every effort to 
earn their cooperation.
    U.S. leverage resides not only in its promise of institutional and 
security support for the TFG, but also in U.S. access and ongoing 
dialog with Nairobi-based elements of the UIC leadership, in particular 
Sheik Sharif Sheik Ahmed, former chair of the Executive Council of 
Islamic Courts. The U.S. Government has made clear to the TFG that it 
considers Sheik Sharif a moderate who can play a vital role in 
reconciling Somali factions.
2. Maintain realistic expectations of an African-Union-led peacekeeping 
        operation
    No amount of external peacekeeping forces will have a chance of 
success in Mogadishu unless a genuine and credible process of 
reconciliation and political dialog is under way. Mogadishu's best hope 
for security hinges on the TFG's success in winning cooperation from 
local clans and business networks to provide a modicum of authority and 
order. In the absence of clearly defined conditions or a genuine 
political dialog by the TFG, African Union forces will fuel popular 
resentment and possibly feed an incipient insurgency. Even a full 
contingent of 8,000 AU troops will be spread very thin in Mogadishu and 
will be at strong risk of failure and attack. The international 
community must remain highly sensitive to this fact as it urges African 
countries to contribute personnel.
    Mounting an adequate AU peacekeeping force will not happen quickly, 
even in the best of circumstances, and the international community 
should be prepared for the possibility of a sharp spike in violence in 
Mogadishu, should there be a gap between Ethiopian withdrawal and AU 
deployment. The African Union, the international community, and the 
Somali people will need a clear and common understanding of the 
mandate, mission, and scope of the operation, which must be achievable 
both militarily and politically. The African Union is not likely to be 
able to muster the full 8,000 personnel any time soon, and even with 
the full contingent will need to set clear and achievable priorities 
for deployment. Efforts must be centered in Mogadishu, and within the 
city may have to be limited to protecting critical infrastructures.
3. Urge the U.N. Security Council to elevate Somalia as a priority and 
        identify an overarching diplomatic structure that can convene 
        all relevant international players
    The United States should urge the U.N. Security Council and U.N. 
Secretary General Ban Ki-moon to refocus its attention on Somalia, 
elaborating the commitments outlined in U.N. Resolution 1725, 
reenergizing the Somalia Panel of Experts, and making clear to the TFG 
its expectations for dialog and governance. The United States should 
also urge the expansion of the International Contact Group for Somalia 
to bring in international partners who have the necessary clout, 
commitment, and neutrality to be helpful. A number of Arab countries, 
notably Qatar, United Arab Emirates, and Saudi Arabia, have 
considerable leverage in Somalia and longstanding engagement in the 
social services sector. Currently Tanzania is the only African member 
of the International Contact Group, and both the African Union and 
League of Arab States have observer status. International efforts will 
need careful coordination, and the United States for the time being 
will need to play a discreet but transparent role.
4. Ensure robust and sustainable resources to back expanded U.S. 
        engagement
    Secretary of State Condoleezza Rice has committed an initial $40 
million for Somalia, a small amount in the context of Somalia's 
requirements, but nonetheless a strong signal that the United States is 
overcoming a decade of entrenched aversion and is prepared to actively 
reengage. Over time, however, there will be a need for reliable and 
secure funding flows in order for the U.S. Government to leverage its 
long-term policy aiDr. Senator Feingold has suggested a Somalia ``trust 
fund'' to support disarmament and demobilization efforts, 
infrastructure projects, capacity-building and jobs creation. This 
model could help ensure a sustained and predictable support flow for 
Somali reconstruction that will endure beyond the current spike in 
public and administration attention to Somalia.
5. Build U.S. institutional capacities
    Policymakers should take advantage of the current resurgence of 
interest in Somalia and the convergence of opinion between the State 
Department and Congress to build U.S. capacities for a sustained and 
comprehensive approach to Somalia. A first step should be to 
significantly expand Somalia-specific analytic and reporting capacity 
in the U.S. Embassy in Nairobi. The United States should engage the 
Combined Joint Task Force-Horn of Africa in training, security sector 
reform, capacity-building, police training and maritime security, 
although clearly this will need to be done carefully and in close 
coordination with other U.S. agencies and international partners. The 
United States can increase its humanitarian flows and work to enhance 
the coordination of international humanitarian efforts, leveraging the 
enduring networks, legitimacy, and community reach of a number of 
operating agencies. Finally, the United States can increase its 
investment in longer term institution-building: In health, education, 
local authorities, and those elements of the TFG that demonstrate some 
commitment to inclusivity and service delivery.
6. Appoint a senior-level figure to coordinate U.S. policy efforts
    Assistant Secretary of State for African Affairs, Jendayi Frazer, 
has devoted considerable attention and energy to the crisis in Somalia, 
as has U.S. Ambassador to Kenya, Michael Ranneberger. Their efforts and 
energy are to be commended and should be bolstered by the appointment 
of a senior-level figure to manage U.S. interagency efforts and 
cooperation with international partners on a day-to-day basis. The 
stakes for U.S. interests are sufficiently high, and the diplomatic 
circumstances more than adequately complex to warrant the appointment 
of a fully empowered and resourced coordinator who will report to the 
Assistant Secretary. Deputy Secretary of State, John Negroponte, should 
add the Horn of Africa to his priority regions for engagement and 
transformational diplomacy.
7. Encourage unity within the U.S. Somali diaspora
    The Somali diaspora within the United States is well-placed and 
eager to play a significant role in rebuilding a stable and secure 
Somalia. Some sources estimate that remittances to Somalia from the 
diaspora community worldwide may be as high as $1 billion annually. And 
as demonstrated at the CSIS conference, the diaspora community remains 
highly engaged and passionate about Somalia's future. In many ways clan 
divisions in Somalia are reflected in U.S. diaspora communities. But 
many Somali Americans clearly grasp that no one clan or grouping can 
dominate the Somali political scene for long and that only through 
broad-based coalitions is there the possibility of sustained peace. 
There are a number of efforts currently under way to bridge the 
divisions among diaspora communities. Should the Somali diaspora 
community come together behind a common set of priorities and goals, 
they could prove a powerful force in moving and sustaining effective 
U.S. engagement in Somalia.
    Senators Feingold and Sununu, I am grateful for the opportunity to 
share these thoughts with you today, and am grateful for the leadership 
and interest you have shown on this important matter. Somalia and the 
Horn of Africa matter significantly in multiple ways to U.S. national 
interests, and Congress is well-positioned to help enhance the good the 
United States can achieve in the Horn, and to avoid the mistakes of the 
past. I hope my comments have been helpful, and look forward to 
continuing to collaborate closely with you and your staff.

    Senator Feingold. Thank you, Dr. Morrison.
    I've attended a lot of hearings of this subcommittee in 15 
years. This is one of the most useful and best panels I've 
heard, and I thank you.
    Let me ask a couple of questions, although the hour is 
late.
    You know, Dr. Morrison, you basically anticipated the first 
question that I want all three of you to answer. I take you as 
having essentially just endorsed the idea of a special envoy 
for Somalia. Let me ask Dr. Shinn and Dr. Menkhaus their 
response on that, in light of Secretary Frazer's comments 
today.
    Ambassador Shinn. Thank you, Senator. I strongly support 
the idea. I know John Yates personally. He's a good personal 
friend of mine. We joined the Foreign Service together. He's a 
very fine officer. The fact is, though, that he is not a 
special envoy. And, as I understand it, and listening to 
Assistant Secretary Frazer this morning, he reports to 
Ambassador Rannenberger, the U.S. Ambassador to Kenya, who is 
preoccupied with Kenyan affairs. So, you do not, in fact, have 
someone who is independently, or semi-independently, engaged 
full time on Somali affairs. And I think this is an ideal 
location to do just that. Normally, I'm not enthusiastic about 
special envoys, because they tend to conflict with Ambassadors 
on the ground. But, in this case, you have no State Department 
personnel in Somalia, and there is no prospect for conflict.
    Senator Feingold. Excellent.
    Dr. Menkhaus.
    Dr. Menkhaus. I agree.
    Senator Feingold. OK. Dr. Shinn, where do U.S. and EU 
objectives and priorities in Somalia overlap? And what are the 
most significant areas of divergence?
    Ambassador Shinn. I think, in a general sense, they pretty 
much overlap. I think where the divergence comes is that the 
European Union, as Assistant Secretary Frazer implied, has been 
much stronger on pushing the idea on the Transitional Federal 
Government that they must be more all-encompassing in terms of 
whom they bring inside that government. And at one point, the 
European Union said it would not provide any funding to the TFG 
unless the TFG did engage in a reconciliation process. 
President Abdullahi Yusuf said that he would start a 
reconciliation effort. He has done that. But it remains to be 
seen whether it's meaningful or not. That's the key. It's one 
thing to go through the motions; it's quite another to be 
serious about power-sharing, about revamping, if necessary, 
Parliament, reducing the number of Ministries from some-50 to 
what probably ought to be about a dozen for Somalia, and making 
sure that you have technically competent people in the jobs.
    Senator Feingold. So, you implied that the African Union 
peacekeeping force, as currently envisioned and authorizes, is 
unrealistic. What do you see as the minimum level of resources, 
mandate, and deployment timetable necessary to stabilize 
Somalia in the short and medium term? And do you think this 
minimum can be achieved? By when? What needs to happen?
    Ambassador Shinn. Short of creating a broadbased 
Transitional Federal Government in Somalia, I, frankly, don't 
see it working. I think that's the bottom line. The first step 
is to have a government that is all-encompassing. Once you have 
that, then the rest, I think, will flow naturally, and I think 
you will have much less resistance from the Ayr sub-sub clan of 
the Habr Gedir sub-clan and the Hawiye clan. I think you will 
have less resistance from the warlords who still have a power 
role in Mogadishu. I think you will have more enthusiasm from 
the businessmen in Mogadishu to support such a government. But 
I'm not sure that there is any number of AMISOM troops that is 
going to be able to secure all of Somalia. At the height of 
UNITAF, the American-led operation, there were 25,000 troops 
there. Some of them, admittedly, were offshore. Even UNOSOM had 
far more than 8,000. And we all know the difficulties that they 
had. They had the most highly sophisticated equipment known to 
military forces around the world. We're asking African units, 
fairly lightly armed, to go in and do something that both 
UNITAF and UNOSOM had a great difficulty doing.
    Senator Feingold. Thank you very much, Doctor.
    Dr. Menkhaus, you've written that, ``The United States must 
not allow support for counterterrorism efforts abroad to 
become''--and I appreciate your blunt language--``a meal ticket 
for leaders in failed states.'' How can we prevent this in 
Somalia and the larger Horn of Africa region, where corruption 
and the lack of transparency are obviously common?
    Dr. Menkhaus. Well, for starters, again, by pushing for 
more accountable, transparent good governance in these 
governments, including the TFG. There has been a tendency to 
use the counterterrorism card to try to solicit our 
unconditional support. And I think one of the messages in the 
panel today is that support to the TFG does very much have to 
be conditional.
    Beyond that, there is an interesting and important problem 
that we haven't spoken about directly, related to 
counterterrorism and our partners in counterterrorism, 
monitoring on the Horn of Africa, and that is to say that we 
all agree that a strong, robust state as a partner in 
counterterrorism is essential as a long-term goal. But we also 
know that that state-building capacity will take a long time to 
build up. In the meantime, we'll have a transitional phase in 
which this government is weak, in which it will be easily 
penetrated, in which, ironically, foreign terrorists will 
probably be able to better exploit Somalia, rather than less 
able to exploit Somalia. The fact is, Somalia today, as a more 
or less de facto collapsed state, is not a very conducive 
environment for many terrorist activities. They actually prefer 
Mombasa or other places in the region.
    We have to have a strategy that will simultaneously allow 
us to build up that state capacity to monitor criminal and 
terrorist activities in the country while preventing terrorists 
from exploiting that transition period. And I think the answer 
in Somalia is community policing. Somalis, at the community 
level, know what's going on in their neighborhoods, they know 
what's going on in their districts. They often know before we 
do where we're driving, because our driver knows. They're--it's 
difficult to keep secrets there, but that presumes that the 
community feels that it's a stakeholder in counterterrorism 
monitoring, and that it has a functional relationship with the 
state. And that's been what's been missing for a long time.
    Senator Feingold. Thank you. What was your reaction to 
Secretary Frazer's answers to my questions about how to define 
the Islamic Courts and about who should or should not be part 
of the political reconciliation process?
    Dr. Menkhaus. Political Islam is ascendant in Somalia, and 
if we demonize or criminalize all of them, if we imply that 
they're all linked to al-Qaeda, as some members in the TFG have 
tried to do, we run the very strong risk of eliminating a very 
important and potentially constructive force in Somalia.
    We've really been talking--in terms of the foreign al-Qaeda 
suspects that we have been worrying about, those high-value 
targets, we're talking about a very small number of people. 
Three is the number that most often comes to mind. And the 
handful of Somalis that we've designated as terrorists are also 
very small. We have to be careful about the lack of 
proportionality in our policies in pursuit of that small number 
of people. A lot of pottery was broken in the pottery barn in 
Mogadishu over the past--over the past few months. A very 
effective government was overturned in Mogadishu. And we are, 
rightly or wrongly, held responsible by the Mogadishu community 
for that.
    So, I would argue that we need to, first of all, allow 
Somalis to make that determination of who represents them in 
their political fora. We have to recognize that will take on 
more of an Islamist flavor. And, again, as long as they 
renounce violence and terrorism, I see no reason not to allow 
them to participate.
    Senator Feingold. Well, I think that's a thoughtful answer. 
And clearly if anybody is al-Qaeda, we have to pursue them, and 
have to pursue them vigorously. But let us not overdefine the 
characteristics of somebody in a way that would prevent us from 
reaching out to people who may not be committed to that course 
at all. I think this is one of the most important questions 
internationally, and Somalia is a great example.
    Dr. Morrison, how has the security threat or threats that 
Somalia poses to the United States changed since your last 
testimony, in July? Has the situation improved, worsened, or 
just changed?
    Dr. Morrison. Well, the advent of the courts--when we were 
last together in July, it was at the front end, and it wasn't 
clear which direction they were moving. The formation and 
dominance of the Shabaab in the intervening period, and the 
escalation of its rhetoric, vis-a-vis the surrounding region, 
and the threats toward the Ethiopians, the provocations, and 
the like, and the reports that came forward in the fall around 
the amalgam of seven or eight sovereign countries, along with 
Hezbollah, that were professing their support, materially and 
financially and diplomatically, of the hardcore jihadi elements 
within the Islamist Courts--these developments were very 
serious ones. And I think they accounted for the response of 
the Ethiopians, and drove much of the response of the United 
States, in partner--in this strategic partnership.
    The Shabaab, it would seem to me, has been decimated and 
scattered. The threat within the boundaries on the soil of 
Somalia is uncertain, but I do not see it as grave and 
resurgent. I think it bears careful watching. I emphasized in 
my comments that there's considerable uncertainty around the 
nature of the--of an Islamist insurgency and the possibility of 
a resurgent jihadi element. Also within the region, in Yemen, 
in Saudi Arabia, in Eritrea, and elsewhere, there are elements 
there which have every incentive to seek to strike new deals 
with al-Qaeda or al-Qaeda affiliated organizations. And that is 
a serious consideration, and one that bears very close watch 
here.
    Senator Feingold. Finally, could you go into further detail 
about the impact that the AC-130 attacks in Somalia could have 
on the broader political efforts in Mogadishu? Does it impact 
our credibility and our work throughout the region?
    Dr. Morrison. Well, I--it creates a very strong hostility--
a broaden--it has had the impact of broadening this--the 
suspicion and hostility toward the United States. Whether this 
was fully warranted or not, that has been one of the impacts. 
And in some ways that was predictable. The legacy of the U.S. 
engagement in the early 1990s, and the abrupt withdrawal after 
the debacle of October 1993, there was a sense of abandonment. 
There's a sense now within the general population that the 
interest in counterterrorism and arms strikes by air and on 
land dominate the U.S. set of concerns at the expense of 
concerns with reconstruction, with political accommodation, 
with the humanitarian response. And that's what I mean about 
the need for a counterbalance or a recalibration of the 
approach that would integrate the hard and soft. Our 
counterterrorism equities are real in this part of the world, 
and are going to continue to be real, and are going to continue 
to require a response and systematic strategy. But we also have 
to much better manage what the fallout is, and protect the 
softer side of the agenda, which remains integral to getting 
Somalia out of its current mess.
    Senator Feingold. Well, I thank all of you for your 
expertise and your patience. This has been a long, but, I 
think, very worthwhile, hearing.
    And that concludes the hearing.
    [Whereupon, at 12:11 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


Responses of Assistant Secretary Jendayi Frazer to Questions Submitted 
                    by Senator Joseph R. Biden, Jr.

    Question. You mentioned in your testimony that there were six 
people at Embassy Nairobi working solely on Somalia full time. When did 
each of them arrive in Nairobi? How many of them are there on temporary 
duty assignments? What are the exact responsibilities of each of them?

    Answer. There are four full-time American employees and two Foreign 
Service Nationals working on Somalia at Embassy Nairobi. Since January 
2007, retired Ambassador John Yates has served as Counselor for Somali 
Affairs and as the head of Embassy Nairobi's Somalia Unit in close 
coordination with Ambassador Ranneberger. The three other American 
employees working on Somalia are mid-level officers, including an FS-02 
Political Officer. The two remaining permanent mid-level Foreign 
Service positions, including an FS-02 Public Diplomacy Officer and an 
FS-03 Political/Economic Officer, have been established and these new 
officers are scheduled to arrive in summer 2007.
    As a temporary measure until these new officers arrive, two other 
officers are on temporary duty assignments that began in January 2007. 
The Foreign Service National employees working on Somalia include one 
specializing in Public Affairs and another responsible for Political 
Affairs.

    Question. Secretary Rice announced $40 million in assistance for 
Somalia last month, $14 million of which, Congress is told, will be 
used for peacekeeping. You mentioned in your testimony that the 
administration is seeking an additional $40 million for peacekeeping in 
Somalia as part of the FY07 emergency supplemental. How much does the 
administration project the African Union peacekeeping mission in 
Somalia will cost per month? How long will the AU mission be in place 
before the United Nations will take over? How much more will we be 
contributing to the mission?

    Answer. The African Union is in the process of developing their 
plan for a peacekeeping mission in Somalia. The AU is still soliciting 
Troop Contributing Countries, developing their concept of operations 
and identifying exact tasks they are going to accomplish. Without more 
information, it is difficult to estimate the costs for conducting the 
mission. Our rough initial estimated costs are $50 million for the 
first 6 months and between $150 and $200 million for the first year of 
operations.
    On February 20, 2007, the United Nations Security Council adopted 
UNSC Resolution 1744 to authorize the African Union to conduct 
peacekeeping operations in Somalia. As a part of that resolution the 
UNSC requested the U.N. Secretary General to send a Technical 
Assessment Mission to the African Union and Somalia. The Technical 
Assessment Mission will report back to the UNSC within 60 days with a 
recommendation for U.N. involvement, including a possible U.N. 
Peacekeeping Operation. The African Union has stated that it intends to 
conduct a 6-month mission before transitioning to a U.N. mission.
    The Department has identified $19.6 million in PKO and GPOI funding 
($5.6 million above $14 million previously announced) to support the 
African Union in its initial deployment. Additionally, the Department 
of State has requested an additional $128 million for the PKO account 
in the FY07 emergency supplemental for peacekeeping and stability 
operations in Somalia and Chad, of which an estimated $40 million would 
be used for Somalia. The Department has requested that these be 2-year 
funds with transferability to the Contributions for International 
Peacekeeping Activities account to provide the necessary flexibility to 
pay the assessed costs of U.N. peacekeeping missions should they be 
established in Somalia and/or Chad.

    Question. During your testimony you stated that the United States 
is ready to assist the Ugandans with deployment as soon as the Ugandan 
Parliament approves sending troops to Somalia. What contingency plans 
has the African Union made should the troops deployed under Phase I 
need to be evacuated or reinforced? Have we committed to helping 
evacuate Ugandan troops if need be? Are the military advisors we have 
in Kampala going to deploy to Somalia with the Ugandan troops?

    Answer. The African Union (AU) has not yet finalized the plans for 
the AU Mission in Somalia (AMISOM), including any contingency plans 
should AU troops require evacuation. However, we expect contingency 
evacuation to be a part of the eventual plan. Neither the African Union 
nor Uganda has requested U.S. assistance in providing evacuation, and 
we are not committed to evacuating Ugandan troops at this time. There 
are no plans for U.S. military advisors to deploy to Somalia.

    Question. How, if at all, will the need for troops to serve as part 
of the mission in Somalia affect the ability of the African Union to 
garner additional troops for deployment to Darfur, Sudan?

    Answer. In our efforts to resolve conflicts across the African 
Continent, the task of generating peacekeeping forces has become 
increasingly difficult. Several countries already involved in 
peacekeeping operations across Africa, such as South Africa, have said 
that they will not be able to provide troops for the African Union 
Mission in Somalia (AMISOM) due to existing peacekeeping commitments. 
However, the United States continues to urge the African Union to reach 
out to potential troop contributing countries and to galvanize support 
for much-needed equipment, training assistance, and funding for 
operational sustainment. We are working within the Department to 
coordinate outreach to potential troop contributing countries for 
various African peacekeeping missions, including Darfur and Somalia. In 
this regard, the African Contingency Operations Training and Assistance 
(ACOTA) program is a critical part of our strategy to expand the number 
and capabilities of African peacekeepers.
    The deployment of a robust peacekeeping operation to Darfur remains 
a central policy priority for the Department. In Sudan, we continue to 
work with the United Nations, African Union, and international partners 
to press for a transition from an African Union mission to a hybrid AU/
U.N. force. As part of a hybrid force, countries from outside of the 
African Continent will be able to contribute troops, thereby 
alleviating somewhat the need for African troop contributions.

                                  <all>

</pre></body></html>
